<html>
<title> - OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                 OVERSIGHT OF THE FEDERAL COMMUNICATIONS
                                 COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 12, 2013

                               __________

                           Serial No. 113-109
                           
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                                _____________
                                
                                
                                
                           U.S. GOVERNMENT PUBLISHING OFFICE
88-325                          WASHINGTON : 2015                           
                        
 ______________________________________________________________________________________                       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b9dec9d6f9dacccacdd1dcd5c997dad6d497">[email&#160;protected]</a>  
                       
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               FRANK PALLONE, Jr., New Jersey
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey                Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     BRUCE L. BRALEY, Iowa
CORY GARDNER, Colorado               PETER WELCH, Vermont
MIKE POMPEO, Kansas                  BEN RAY LUJAN, New Mexico
ADAM KINZINGER, Illinois             PAUL TONKO, New York
H. MORGAN GRIFFITH, Virginia         JOHN A. YARMUTH, Kentucky
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
LEE TERRY, Nebraska                  DORIS O. MATSUI, California
MIKE ROGERS, Michigan                BRUCE L. BRALEY, Iowa
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             BEN RAY LUJAN, New Mexico
LEONARD LANCE, New Jersey            JOHN D. DINGELL, Michigan
BRETT GUTHRIE, Kentucky              FRANK PALLONE, Jr., New Jersey
CORY GARDNER, Colorado               BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             JIM MATHESON, Utah
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
RENEE L. ELLMERS, North Carolina     HENRY A. WAXMAN, California, ex 
JOE BARTON, Texas                        officio
FRED UPTON, Michigan, ex officio
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     3
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     5
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     7
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     8

                               Witnesses

Tom Wheeler, Chairman, Federal Communications Commission.........    10
    Prepared statement...........................................    13
    Answers to submitted questions...............................    87
Mignon Clyburn, Commissioner, Federal Communications Commission..    23
    Prepared statement...........................................    25
    Answers to submitted questions...............................   113
Jessica Rosenworcel, Commissioner, Federal Communications 
  Commission.....................................................    34
    Prepared statement...........................................    36
    Answers to submitted questions...............................   127
Ajit Pai, Commissioner, Federal Communications Commission........    38
    Prepared statement...........................................    40
    Answers to submitted questions...............................   138
Michael O'Rielly, Commissioner, Federal Communications Commission    52
    Prepared statement...........................................    53
    Answers to submitted questions...............................   151


           OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION

                              ----------                              


                      THURSDAY, DECEMBER 12, 2013

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:10 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Greg 
Walden (chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Latta, Shimkus, 
Terry, Rogers, Blackburn, Lance, Guthrie, Gardner, Kinzinger, 
Long, Ellmers, Barton, Upton (ex officio), Eshoo, Matsui, 
Lujan, Dingell, DeGette, Matheson, and Waxman (ex officio).
    Staff present: Gary Andres, Staff Director; Ray Baum, 
Senior Policy Advisor/Director of Coalitions; Sean Bonyun, 
Communications Director; Matt Bravo, Professional Staff Member; 
Andy Duberstein, Deputy Press Secretary; Gene Fullano, 
Detailee, Telecom; Kelsey Guyselman, Counsel, Telecom; Grace 
Koh, Counsel, Telecom; David Redl, Counsel, Telecom; Charlotte 
Savercool, Legislative Coordinator; Tom Wilbur, Digital Media 
Advisor; Jessica Wilkerson, Staff Assistant; Shawn Chang, 
Democratic Chief Counsel for Communications and Technology 
Subcommittee; Margaret McCarthy, Democratic Professional Staff 
Member; Kara van Stralen, Democratic Policy Analyst; and 
Patrick Donovan, Democratic FCC Detailee.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I will call to order the subcommittee on 
Communications and Technology, and it is a delight to welcome 
all five members of the Federal Communications Commission, 
fully installed, and bright and shiny faces and ready to go 
today. We welcome you. And, Chairmen Wheeler and Commissioner 
O'Rielly, we especially welcome you and look forward to working 
with you to set the communications agenda for the United 
States.
    The Federal Communications Commission is the arm of our 
government tasked with fostering some of the most important 
parts of our national economy, and among them, the 
telecommunications industry, the video distribution industries, 
and the Internet.
    Given the economic significance of these industries, the 
changes from Congress--the charge from Congress to encourage 
competition, license our national spectrum assets, and 
facilitate technological advances, is one that must be 
discharged with transparency, accountability, and a long view 
of the technological landscape. It is with this in mind that 
this subcommittee has worked over the last 3 years on efforts 
to improve the Commission's processes. As the subcommittee with 
jurisdiction over the Federal Communications Commission, we 
take this task very seriously and with great care to ensure the 
Commission not only remains a vital institution, but one that 
can serve as an example for other federal agencies of 
accountability and efficiency. A bipartisan majority of this 
subcommittee is deeply committed to this cause, and is proud to 
have reported out a bipartisan FCC process reform bill to the 
full House of Representatives yesterday.
    Chairman Wheeler, it is clear you want to improve the 
Agency. I have appreciated our conversations and your comments, 
and I would like to commend you for turning your attention to 
this task as one of your first roles as Chairman by asking one 
of your top advisors to review the FCC process, and submit 
recommendations for improvement by early 2014.
    While there are a number of large proceedings currently 
pending at the Commission, many of this we will talk about 
today, I am particularly concerned with returning the 
Commission to addressing some of its long-overdue 
responsibilities. For example, despite multiple unsuccessful 
trips to the Third Circuit Court of Appeals, the Commission's 
responsibility to address the Media Ownership proceeding 
remains unfulfilled. Additionally, licensing, one of the 
original reasons for the creation of the Commission, has fallen 
woefully behind. Of particular note is the tragic pace of 
processing of applications in the Commission's Media Bureau.
    Now, the AM Radio industry has been clamoring for the 
ability to use FM translators to give new life to that classic 
medium, and I certainly appreciate what Commissioner Pai has 
done taking on this issue, and it is very good work, and as a 
former licensee, I actually know firsthand the Commission has 
been in no rush to address translator applications. In fact, my 
own application sat unresolved at the Commission for 10 years. 
To put this in context, while the Commission considered my 
application, my wife and I actually sold our radio stations, 
our son went off and graduated from college, and every full-
power television station in the country converted from analog 
to digital broadcasting.
    Look, the Commission can do better than that. The 
Commission should do better than that, and I am hopeful that 
our shared commitment will lead to improvement in that bureau.
    As the only one on the panel with the unique experience of 
having been a licensee of commercial broadcast, and still under 
your jurisdiction with my amateur radio license, which I am set 
to renew for March, and hopefully it will get approved within 
10 years, I would like to offer two pieces of advice for you as 
you move forward with your change. First, where Congress has 
spoken, I urge you to heed the words in statute, and reject 
calls to act in ways contrary to congressional intent. For 
example, in the Incentive Auction proceedings, some were 
calling on the Commission to exclude bidders from participating 
in the auction. Others still are calling for excessive guard 
bands in the attempt to end run requirements to license reclaim 
TV band spectrum. I am just saying both are bad ideas.
    Second, I urge you to bear in mind that even seemingly 
small changes in your rules can have significant impact on the 
market. The Commission's recent decision to apply yet 
incomplete rules to its UHF discount has effectively frozen 
many plans for broadcast mergers and acquisitions. The problem 
here isn't that the Commission wants to update, or needs to 
update the UHF discount rule; the problem is that, absent a 
decision how and importantly when the Commission will move 
forward, it has pressed pause for an indefinite period of time. 
We all know that markets do not react favorably to this kind of 
open-ended uncertainty.
    On the other hand, I applaud the recent announcement on the 
schedule for the Spectrum Incentive Auctions. Both the 
broadcast and wireless industries are waiting with baited 
breath to see how the FCC addresses this first-of-a-kind 
auction, to say nothing of the public safety agencies that are 
counting on the auction fund to fund FirstNet. The certainty of 
a timetable is good for both stakeholders and for the 
Commission.
    Finally, turning to those large proceedings the Commission 
has on its plate. We are looking forward to working with you to 
tackle the tough issues like the IP transition, universal 
service reform and media ownership. Chairman Upton and I 
recently launched a large proceeding of our own; an initiative 
to update the Communications Act. Each of you brings a unique 
perspective to your work on the Commission; industry lobbyists, 
newspaper publisher, a couple of lawyers, even some former 
legislative Hill staffers. That experience combined with your 
expertise on the Federal Communications Commission staff and 
your own work on the Commission will be valuable in our efforts 
as we work together to update and modernize the Communications 
Act.
    So Congress--or, Chairman Wheeler, we wouldn't want to 
demote you to the level of Congressman, Chairman Wheeler--yes, 
our numbers aren't that great. Commissioner O'Rielly, we 
especially welcome you aboard the FCC. And Commissioners 
Clyburn, Rosenworcel, and Pai, welcome back, not only to the 
Commission, but before our committee. We thank you all for 
joining us today. We look forward to working together in this 
very critical sector of America's economy to spur further 
innovation of technology growth and jobs.
    And with that, I will now yield to the ranking member of 
the subcommittee, my friend, Ms. Eshoo, from California.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    I am pleased to welcome the full complement of FCC 
Commissioners and its new chairman to our subcommittee today. 
Chairman Wheeler and Commissioner O'Rielly, we welcome you and 
look forward to working with you to set the communications 
agenda for our nation.
    The Federal Communications Commission is the arm of our 
government tasked with fostering some of the most important 
parts of our national economy. Among them, the 
telecommunications industry, the video distribution industries, 
and the Internet. Given the economic significance of these 
industries, the charge from Congress to encourage competition, 
license our national spectrum assets, and facilitate 
technological advances is one that must be discharged with 
transparency, accountability, and a long view of the 
technological landscape.
    It is with this in mind that this subcommittee has worked 
over the last 3 years to improve the commission's process. As 
the subcommittee with jurisdiction over the FCC, we take great 
care to ensure that the commission not only remains a vital 
institution, but one that can serve as an example for other 
federal agencies of accountability and efficiency. A bipartisan 
majority of this subcommittee is deeply committed to this cause 
and is proud to have reported a bipartisan FCC process reform 
bill to the full House yesterday. Chairman Wheeler, it's clear 
you want to improve the agency, and I'd like to commend you for 
turning your attention to this task by assigning one of your 
top advisors to review FCC processes and submit recommendations 
for improvement by early January 2014.
    While there are a number of large proceedings currently 
pending at the commission, many of which we will talk about 
today, I am particularly concerned with returning the 
commission to addressing some of its long overdue 
responsibilities. For example, despite multiple unsuccessful 
trips to the Third Circuit Court of Appeals, the commission's 
responsibility to address the media ownership proceeding 
remains unfulfilled. Additionally, licensing--one of the 
original reasons for the creation of the commission--has fallen 
woefully behind. Of particular note is the tragic pace of 
processing of applications in the commission's Media Bureau. 
The AM radio industry has been clamoring for the ability to use 
FM translators to give new life to a classic medium. I 
appreciate Commissioner Pai's good work in this regard. And, as 
a former licensee, I know first hand that the commission has 
been in no rush to address translator applications. My own 
application sat unresolved at the commission for ten years. To 
put this in context, while the commission considered my 
application my wife and I sold our stations, our son went off 
to and graduated college, and every full-power television 
station in the country converted from analog to digital 
broadcasting. The commission can and should do better and I am 
hopeful that our shared commitment will lead to improvement.
    As the only one on this panel with the unique experience of 
having been a licensee of the commission as well as a 
policymaker, I would like to offer two pieces of advice for you 
as you move forward with your charge. First, where Congress has 
spoken, I urge you to heed the words in statute and reject 
calls to act in ways contrary to congressional intent. For 
example, in the incentive auction proceeding some are calling 
on the commission to exclude bidders from participating in the 
auction. Others still are calling for excessive guard bands in 
an attempt to end-run requirements to license reclaimed TV band 
spectrum. Both are bad ideas.
    Second, I urge you to bear in mind that even seemingly 
small changes in your rules can have significant impact on the 
market. The commission's recent decision to apply yet 
incomplete rules to its UHF discount has effectively frozen 
many plans for broadcast mergers and acquisitions. The problem 
here isn't that the commission wants to update the UHF discount 
rule, the problem is that absent a decision how--and 
importantly, when--the commission will move forward, it has 
pressed pause for an indefinite period of time. We all know 
that markets do not react favorably to this kind of open-ended 
uncertainty.
    On the other hand, I applaud the recent announcement on the 
schedule for the spectrum incentive auctions. Both the 
broadcast and wireless industries are waiting with bated breath 
to see how the FCC address this first-of-its-kind auction, to 
say nothing of the public safety agencies that are counting on 
the auction to fund FirstNet. The certainty of a timetable is 
good for both stakeholders and the commission itself.
    Finally, turning to those large proceedings that the 
commission has on its plate, we are looking forward to working 
with you to tackle tough issues like the IP Transition, 
Universal Service Reform, and media ownership. Chairman Upton 
and I recently launched a large proceeding of our own--an 
initiative to update the Communications Act. Each of you brings 
a unique perspective to your work on the commission: industry 
lobbyist, newspaper publisher, a couple of lawyers, and even 
some former legislative staffers. That experience, combined 
with your expertise on the Federal Communications Commission 
itself will be valuable part of our efforts and we look forward 
to working together.
    Chairman Wheeler, Commissioner O'Rielly, welcome. 
Commissioners Clyburn, Rosenworcel, and Pai, welcome back. We 
thank you for joining us today and look forward to working 
together to foster this critical sector of the economy.

                                #  #  #

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, for holding this 
hearing. It is wonderful to see a full Federal Communications 
Commission before us. Welcome to each one of you. A special 
welcome to the new Chairman. I think that you start out with 
100 percent goodwill with everyone that is on this committee, I 
think our full committee, in fact, I think the Congress.
    There have been many months where we didn't have a full 
Commission. I want to once again thank Commission Clyburn for 
her exceptional leadership during that period of time. Welcome 
to each one of the Commissioners, and, of course, to the newest 
Commissioner, Mike O'Rielly, who served on the other side of 
that table. When I first came to the committee, he was here 
when we began the Telecom Act, and now, guess what, you get to 
trudge through that all over again, according to the Chairman. 
So I guess there are some things that we just never finish 
with.
    As Chairman Wheeler announced last week, the Commission has 
made the upcoming Incentive Auction of broadcast television 
spectrum the top priority of the Commission, and I agree. This 
is a rare opportunity to auction beachfront spectrum under 1 
gigahertz, and the FCC has to structure rules to promote a 
competitive wireless landscape, and ensure carriers of all 
sizes, both regional and national, have an opportunity to bid 
competitively for licensed spectrum, and it has to be done 
right. It is the first time in the history of the world that an 
auction has been structured this way, and I appreciate, Mr. 
Chairman, and all the Commissioners, your understanding the 
delicacy of this needing to be done right, well, and 
successfully.
    Similarly, recognizing the enormous economic and societal 
benefits of an unlicensed spectrum, which is tucked away in one 
corner of my Telecom heart, the FCC has an opportunity to 
structure a band plan that ensures a nationwide block of 
spectrum under 1 gigahertz dedicated for unlicensed innovation. 
With unlicensed spectrum being a critical tool to bring 
broadband to unserved areas, including rural America, this 
opportunity really must be seized.
    In addition to the important role the FCC has in freeing up 
more spectrum for mobile broadband, I would like to highlight 
four issues that the Commission make a top priority in 2014, 
and I think you are going to.
    First, during the 3 months since I released draft 
legislation, the message from individuals, communications 
companies and consumer groups has been abundantly clear. Our 
video laws are in need of reform. They are broken. Independent 
of such legislation, the Commission does have an important 
responsibility to promote competition, consumer choice, and 
localism across the video marketplace.
    Second, I hope the Commission will continue its focus on 
modernizing the e-Write Program to support the 21st century 
digital needs of our schools and libraries. In June, together 
with Commissioner Rosenworcel, we called for such an update, 
and I am pleased that the Whitehouse and the FCC agree with us 
and have made this issue a key priority. We have to stay on it. 
We have to move, and we have to make it much better. It has got 
to be a 21st century plan.
    Third, the Commission should uphold, I think, the goals of 
Section 629, and ensure a vibrant, competitive retail Set-Top 
Box market. The successor to the current cable card regime, 
whether by FCC rule or, more preferably, a voluntary industry 
agreement, will usher in a new generation of technologies that 
will give consumers greater choice and ensure that innovation 
flourishes.
    Finally, I am pleased that the Commission has made the 
transition to next-generation 911, as well as improving the 
indoor location accuracy of 911 calls a key priority. In fact, 
later today, it is my understanding that the Commission will 
vote on an Order to improve the reliability of 911, and I look 
forward to continued updates as the Commission proceeds with 
the implementation of Next Gen 911.
    Mr. Chairman, thank you for holding this morning's hearing. 
I look forward to the important testimony of Chairman Wheeler 
and each of the Commissioners. Most importantly, I pledge to 
work with each of you to make America's communications sector 
the most effective and the most admired in the world.
    And with that, I yield back.
    Mr. Walden. Gentlelady yields back.
    The Chair now recognizes the chairman of the full 
committee, Mr. Upton, from Michigan, I believe.
    Mr. Upton. Great State of Michigan.
    Mr. Walden. Not Ohio.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman.
    Now, today we welcome a fully-constituted FCC back to the 
Energy and Commerce Committee. The last time that we heard from 
the full Commission was in July of 2012. So the FCC has 
regulatory authority over a sector of our economy that is 
critical to innovation, jobs and our Nation's global leadership 
in technology. The communications sector is also an integral 
part of our daily lives, connecting us to loved ones, alerting 
us to natural disasters, and entertaining and educating us 
every single day.
    As the regulatory agency of these industries, the FCC has 
the immensely-important task of promoting growth and 
competition. Our hearing today will examine actions that the 
FCC has taken since the last Commission last appeared and set 
expectations for the Agency's future. As the oversight 
authority for the Commission, our committee works hard to 
ensure that the FCC functions for the benefit of American 
consumers as well as companies. And we also want to make sure 
that this Agency functions efficiently and transparently as all 
government agencies should.
    I am glad to say that this is not a partisan concern. 
Bipartisan majority on a voice vote of the full committee 
reported an FCC Process Reform Bill yesterday that will help 
the FCC operate more openly and effectively, and we expect it 
to be on the House floor in the not-too-distant future. And the 
bill is needed. There are several stalled proceedings and 
ambiguous projects at the Commission that caused concern to me 
and other members of the committee. We have sent a number of 
letters in the past months regarding media ownership 
proceedings. Subcommittee Vice Chair Latta has gone to the 
extent of drafting a bill to end the Cable Set-Top Box 
Integration Ban, a bill that seems to make a lot of sense, and 
which perhaps the FCC should have considered doing a while ago. 
My concern and hope is that we can start a productive dialogue 
today with our esteemed witnesses on these and the many other 
important issues pending at the Commission.
    Commissioner O'Rielly, I would like to welcome you back to 
the Energy and Commerce Committee, a committee you know well, 
having once served here as staff. And, Chairman Wheeler, though 
you are from Ohio, this is often known as the Big House, now 
the Dingell Room. Hope you appreciate the green-and-white 
decor. And, yes, we were for Sparty. Welcome back.
    And I yield to other members--Republican members.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Today we welcome a fully constituted FCC back to the Energy 
and Commerce Committee. The last time we heard from the full 
commission was July 2012. The FCC has regulatory authority over 
a sector of our economy that is critical to innovation, jobs, 
and our nation's global leadership in technology. The 
communications sector is also an integral part of our daily 
lives, connecting us to loved ones, alerting us to natural 
disasters, and entertaining and educating us every day. As the 
regulatory agency of these industries, the Federal 
Communications Commission has the immensely important task of 
promoting growth and competition.
    Our hearing today will examine actions the FCC has taken 
since the commission last appeared and set expectations for the 
agency's future. As the oversight authority for the commission, 
our committee works hard to ensure that the FCC functions to 
the benefit of American consumers and companies. We also want 
this agency to function efficiently and transparently, as all 
government agencies should. I'm glad to say that this is not a 
partisan concern--a bipartisan majority of the full committee 
reported an FCC Process Reform bill yesterday that will help 
the FCC operate more openly and effectively.
    And the bill is needed. There are several stalled 
proceedings and ambiguous projects at the commission that cause 
concern to me and other members of this committee. We have sent 
several letters in the past months regarding media ownership 
proceedings. Subcommittee Vice Chairman Latta has even gone to 
the extent of drafting a bill to end the cable set-top box 
integration ban, a bill that seems to make a lot of sense and 
which, perhaps the FCC should have considered doing a while 
ago. My sincere hope is to start a productive dialogue today 
with our esteemed witnesses on these and the many other 
important issues pending at the commission.
    Commissioner O'Rielly, I'd like to welcome you back to 
Energy and Commerce, a committee you know well, having once 
served on the staff here. Chairman Wheeler, we welcome you and 
look forward to working together during your tenure as 
chairman.

                                #  #  #

    Mr. Walden. The Chairman now recognizes the vice chair on 
subcommittee communications, Mr. Latta, from Ohio, home of the 
Speaker of the House. More importantly, number two.
    Mr. Latta. Thank you very much for yielding, Mr. Chairman, 
and thank you very much to our Commissioners for being with us 
today, and welcome to our newest members of the Commission. I 
really appreciate having you here with us today.
    The communications and technology industry has been a 
consistent bright spot in the U.S. economy. It has created 
millions of American jobs, spurred significant investment and 
innovation, and most importantly, empowered consumers, who are 
the driving force behind robust competition in the 
communications marketplace.
    As U.S.-based businesses lead the world in technological 
advances, we have a responsibility to ensure the FCC fosters 
continued growth and development in the communications sector. 
This can be achieved by the FCC incorporating more transparency 
and accountability in its processes; operating within the 
bounds of the statutory authority; and acting upon legislation 
according to Congressional intent.
    I look forward to continuing working with Chairman Upton 
and the members of this committee, and also Congressman Green, 
on my bill, H.R. 3196, which is the legislation to eliminate 
the integration ban on Set-Top Boxes, and allow the marketplace 
to get to the next generation of innovation without the 
regulatory barriers being put in front of it.
    I look forward to the hearing and hearing the testimony 
today. And, Mr. Chairman, I yield back.
    Mr. Walden. Thank you.
    Chair recognizes the gentlelady from Tennessee, the vice 
chair of the full committee, for the remaining 40 seconds, if 
she wants.
    Mrs. Blackburn. And I thank the Chairman. I want to welcome 
all of our Commissioners, and publicly commend Commissioner 
Clyburn for the wonderful work that she did when she served as 
the Acting Chair. We appreciate that leadership. And, Chairman 
Wheeler, we look forward to having you continue and to work in 
a collaborative manner to find results for the private sector. 
We would hope that the Commission will be proactive, not get 
beyond its mission, but to stay focused on your core mission. 
Pay attention to economic analysis, look at cost-benefit 
analysis, and make certain that you don't suffer mission creep, 
which is casting a shadow over the private sector.
    With that, I yield back.
    Mr. Walden. The gentlelady yields back.
    Chair recognizes the ranking member of the full committee, 
Mr. Waxman.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman. I want to 
welcome the members of the Commission, Chairman Wheeler and all 
the Commissioners, and I also want to join in commending 
Commissioner Clyburn for the incredible job she did as Acting 
Chairwoman from the industry agreement on interoperability, to 
long-overdue reforms on prison phone rates. Your brief 
chairmanship will be remembered for the remarkable amount you 
accomplished.
    Let me welcome Chairman Wheeler and Commissioner O'Rielly. 
I congratulate you on your appointment and confirmation, and we 
are pleased to have you here. You join the FCC at a time when 
our country is undergoing dramatic and perhaps fundamental 
transformations in communications, networks and technologies, 
and the decisions you make at the Commission will no doubt have 
lasting impact on our nation's communications landscape.
    At the top of the FCC agenda is the spectrum auctions 
authorized by the Public Safety and Spectrum Auction Act last 
year, and I am pleased to see that the FCC is moving ahead to 
conduct the H Block Auction in January, in addition to 
allocating new wireless spectrum to address our nation's 
spectrum shortage. This auction will provide significant down-
payment for the nationwide Interoperable Public Safety Network.
    I also support, Chairman Wheeler, your recently-announced 
timetable for the Incentive Auction. This auction has many 
layers of complexity, and I applaud your commitment to getting 
the technical issues right.
    Congress gave the FCC the tools to unleash the economic 
opportunities for both licensed and unlicensed spectrum, 
revolutionized public safety communications, ensure a vibrant 
and competitive wireless market, all the while protecting 
consumer access to free, over-the-air television. And I think 
the FCC must remain faithful to these goals as you implement 
the law.
    You also must bear in mind the principles undergirding the 
Communications Act as we consider the next evolution in our 
nation's wireless networks. Our values do not change with each 
successive generation of technology. Whether the infrastructure 
is copper or fiber optics, the Commission's charge is to 
protect and promote the longstanding goals of competition, 
universal access and consumer protection.
    Chairmen Upton and Walden recently called for a multi-year 
examination of possible updates to the Communications Act, and 
I welcome the opportunity for a bipartisan consideration of 
these issues, and I hope the Commission will be a partner in 
this endeavor.
    In 2010, the Commission and this committee spent many hours 
working to preserve the principle of an open Internet. That 
process led to a sensible set of rules governing the broadband 
market that was supported by a diverse group of stakeholders, 
and provided the foundation for the FCC's Open Internet Order. 
I believe the Open Internet Order will be upheld in the court, 
but whatever the outcome, I will be looking to you to ensure 
that the Internet remains an open platform for innovation and 
economic growth.
    I want to, at this point, yield the balance of my time to 
my fellow Californian and good friend, Congresswoman Matsui.
    Ms. Matsui. Thank you very much, Ranking Member Waxman, for 
yielding me time. It is wonderful to see the full complement of 
the Commission here today. I want to join in welcoming Chairman 
Wheeler and--who brings a wealth of knowledge and experience to 
the FCC, and I would also like to congratulate and welcome 
Commissioner O'Rielly, and I also would like to commend 
Commissioner Clyburn for her leadership during the interim 
period. Thank you very much.
    Mr. Chairman, the subcommittee is working diligently to 
find bipartisan solutions for smart and sound spectrum policy 
for our nation. We work to create a path for DOD to reallocate 
the 7055 to 7080 megahertz band. DOD and the broadcasters 
should be applauded for their leadership on a landmark sharing 
agreement. Moreover, I joined with Representative Guthrie to 
introduce H.R. 3674, the Federal Spectrum Incentive Act, which 
passed this committee yesterday in a bipartisan manner. The 
bill is first of its kind that offers a fresh approach that 
would create a Federal Spectrum Incentive Auction.
    I look forward to working closely with my colleagues and 
the Administration in moving this bill to the floor.
    There are tough decisions ahead, and I want to encourage 
also the FCC to move it forward with the USF reform efforts. 
Modernizing the USF for broadband, particularly the Lifeline 
Program, will provide a path toward universal broadband 
adoption in this country.
    And with that, I yield back the balance of my time.
    Mr. Walden. The gentlelady yields back the balance of her 
time.
    All time has been consumed. We will now go to our 
witnesses, and again, we thank you very much for being here 
today, and the public service work you are all undertaking.
    And, Mr. Wheeler, as Chairman of the FCC, we are going to 
lead off with you. So pull that microphone close, turn on the 
button, and you are good to go, sir.

  STATEMENTS OF THE HONORABLE TOM WHEELER, CHAIRMAN, FEDERAL 
   COMMUNICATIONS COMMISSION; THE HONORABLE MIGNON CLYBURN, 
COMMISSIONER, FEDERAL COMMUNICATIONS COMMISSION; THE HONORABLE 
   JESSICA ROSENWORCEL, COMMISSIONER, FEDERAL COMMUNICATIONS 
   COMMISSION; THE HONORABLE AJIT PAI, COMMISSIONER, FEDERAL 
COMMUNICATIONS COMMISSION; AND THE HONORABLE MICHAEL O'RIELLY, 
        COMMISSIONER, FEDERAL COMMUNICATIONS COMMISSION

                    STATEMENT OF TOM WHEELER

    Mr. Wheeler. Thank you very much, Mr. Chairman, Ms. Eshoo, 
other members of the committee. It is a privilege to be before 
you today, and a privilege to be joining my colleagues here, 
the full component of the Commission. I think we will make a 
great team, and I know that all of us are honored to be able to 
work with the quality men and women that make up the FCC.
    Today is my 39th day on the job, and I have enjoyed the 
informal discussions that I have been able to have with many of 
you in the interim. I look forward to today having even more 
complete discussions and to working with you afterwards.
    As I think everybody in their statements has indicated, we 
are in a very exciting time--in the midst of a great network 
revolution. The lesson of history is that revolutions like that 
come chock full of challenges, and we are going to have to work 
together on how we address those challenges.
    We have tended to look at those challenges through three 
prisms, if you will. First of all, how do we make sure that 
what policies we adopt promote economic growth and maintain 
national leadership? Clearly, at the root of those are issues 
such as competition and maintaining the necessary assets, such 
as spectrum.
    The second prism is what we have begun to call ``the 
network compact.'' For a century, there has been a developed 
set of values that represent the relationship between those who 
operate networks and those who use networks. Those values must 
be preserved regardless of the type of the technology used in 
the network.
    And third is the goal that networks work for everyone. It 
is not just the delivery of broadband, but it is what broadband 
enables that is important. If we don't have 21st century 
education capabilities, if we don't make sure that Americans 
with disabilities have access to the capabilities of the new 
technology network, if we don't make sure that the Tribal 
Americans have opportunities to use the new networks, then we 
have failed in our goal.
    So those three things--economic growth, the network compact 
and what networks enable--are the three pillars of policy, but 
at the heart of them is competition. It has become a joke, at 
least in my office that I keep saying competition, competition, 
competition, but that is very much what we believe.
    Let me do a quick look at the three areas where the 
Commission is keeping pace with innovation--that innovative 
economy. First is process reform. The committee's bipartisan 
effort yesterday is significant and is noted and appreciated. 
On my second day, Mr. Chairman, as you noted, I began a process 
that will produce a report in 60 days. We are going to look at 
how to enhance accountability through deadlines and tracking 
systems; how to expedite the licensing process like you 
referenced, and how to shorten the processing time of 
applications for review. Commissioner Pai has an interesting 
idea in that regard, how to streamline consumer complaint 
collection and a searchable database, which Commissioner 
Rosenworcel has been a champion of, and how to attack the 
backlog, as Commissioner Clyburn did when she was Chairwoman. 
We also want to weed out outdated regulations and incorporate 
performance measures.
    The second focus is going to be, as you have all 
appropriately said, the spectrum auctions, especially the 
Incentive Auction. This committee, working with NTIA and DOD, 
has provided great leadership on the 1755 to 1780 MHz band, and 
we look forward to moving forward on that and moving that to 
auction. The Guthrie-Matsui Bill, which you all moved yesterday 
and has been referenced, takes the Incentive Auction idea and 
applies it to federal agencies, which is a great step forward. 
Speaking of incentives, we have the Incentive Auction coming 
up. We have established a schedule now. We are going to have 
policy recommendations in January; we are going to have 
consideration and discussion of that until spring when we will 
be making a decision; and we will have an auction in mid-2015.
    But while we are discussing spectrum and regulatory 
process, I would be remiss if I didn't bring up an item we will 
be considering today--a proposal to ask for comments on a rule 
to reflect the realities of new onboard aircraft technology. 
There have been lots of misconceptions about that, and let me 
just see if I can address these right up front. One, we are 
proposing to consider to continue the ban on mobile devices 
that can interfere with terrestrial networks, but where there 
is new onboard technology that eliminates that potential for 
interference, then there is no need for an interference rule. 
This is the responsible thing to do. Where the rationale for a 
rule doesn't exist, the rule shouldn't exist. We are the expert 
technical agency, and new technology removes the technical 
justification of this rule. In that regard, I should mention 
that I have spoken with Transportation Secretary Fox this 
morning, and he has told me that, yes, the FCC is the technical 
agency, and that the Department of Transportation is the 
aviation agency, and that they will be moving on a rule to 
address voice calls on airplanes. I am the last person in the 
world who wants to listen to somebody talking while I fly 
across the country, but we are the technical agency, and we 
will make the technical rules that reflect the way the new 
technology works.
    Finally, item three, you have all talked about the IP 
transitions, I should say because it is not just one 
transition, it is a multifaceted process. At today's meeting, 
we are going to hear a report from the Technology Transitions 
Policy Taskforce, which will lay out a schedule including a 
plan for a January order that will invite experiments in the 
field, real-life experiments, recommend data collection, and 
create a framework for policy decisions.
    So we have a full agenda, as you have all said. It is a 
privilege to be here, to be able to work with all of you, and I 
look forward to doing that in the time coming.
    [The prepared statement of Mr. Wheeler follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walden. Chairman Wheeler, thank you for your public 
service, and thank you for recognizing our concerns on the 
subcommittee and full committee.
    And now we will switch to, I guess once a Chairman, always 
a Chairman, right? Highest title. Former Chairwoman Clyburn. We 
are delighted to have you back before the committee. Thanks for 
your work publicly and please go ahead with your opening 
statement.

                    STATEMENT MIGNON CLYBURN

    Ms. Clyburn. Thank you, Chairman Walden, Ranking Member 
Eshoo and members of the committee. Thank you again for 
allowing me to appear before you today.
    Since our last visit, I have had an incredible opportunity 
to serve as Acting Chair, and I am glad to note that with the 
support of my colleagues and the assistance of a skilled and 
dedicated staff, we were able to move a number of important 
items which clearly advanced the public interest.
    This hearing comes at a critical stage in our 
communications policy continuum. We are experiencing tremendous 
technological change that affects every aspect of our lives. 
And as we look ahead to the challenges of tomorrow, I believe 
it is important to understand the terrain over which we have 
traveled. We have reached a voluntary interoperability industry 
solution and the lower 700 megahertz ban to address an issue 
that, for years, had been impeding the deployment of valuable 
spectrum. We launched a proceeding to modernize the FCC's 
schools and libraries program, known E-Rate, to ensure that our 
children have the resources and connectivity they need to 
support digital learning and become the leaders of tomorrow. We 
adopted an Order to address rule call completion because it is 
unacceptable in today's world that calls to non-urban areas are 
not being completed. We adopted an Order to reform inmate 
calling services to finally provide relief to millions of 
families who have been paying unreasonably-high rates to stay 
connected with loved ones. We enabled the H Block Spectrum 
Auction, and the AWS-3 Proposal to take major steps forward on 
government and commercial spectrum sharing, and we have made 
ongoing reforms to Lifeline, and proposed significant 
forfeitures to companies not following the FCC's rules.
    With Chairman Wheeler and my fellow Commissioners, I look 
forward to building on the progress we have made. As Chairman 
Wheeler has made clear, the voluntary incentive auction 
proceeding continues to be a top Commission priority. For those 
broadcast television licensees who want to continue to use 
their spectrum, the Act mandates that the Commission make all 
reasonable efforts to preserve the coverage area and population 
served. The Act also has clear directives for the proceeds from 
the Forward Auction, which includes much-earned contributions 
to the Public Safety Trust Fund and the national deficit.
    Congress also gave the Commission authority to propose a 
ban plan with an appropriate balance of unlicensed and licensed 
spectrum. Unlicensed spectrum plays a critical role in 
advancing more efficient use of spectrum, and commercial 
wireless carriers are increasingly using unlicensed Wi-Fi 
services to offload their smartphone traffic. In addition to 
spectrum, Chairman Wheeler has also announced that the 
Commission will consider an Order next month to launch trials 
regarding the ongoing technology transitions.
    I do believe that trials, instructed properly, can produce 
helpful insights into how best to approach reform, and I will 
be keeping a keen eye on how the trials and future reforms 
affect all consumers. Process reform is where we have an 
opportunity to develop an even more efficient Agency.
    Yesterday, the committee passed a Federal Communications 
Commission Process Reform Act of 2013. I am pleased that the 
proposed modifications to The Sunshine Act would facilitate 
federal commissioners' participation on the Federal State Joint 
Boards and the Joint Conference.
    I would also encourage you to review the Paperwork 
Reduction Act and how it can be improved. For example, the FCC 
is using its Web site to better inform consumers and industry, 
yet, to obtain voluntary feedback on our Web site, the PRA 
requires OMB approval. As a result, the Commission cannot be as 
responsive to users without engaging in a lengthy OMB approval 
process.
    So as you can see, Mr. Chairman, and distinguished members 
of the committee, we have both challenges and opportunities 
ahead. I look forward to working with each of you to address 
our evolving communications landscape.
    I appreciate your attention this morning, and would be glad 
to answers any questions you may have.
    [The prepared statement of Ms. Clyburn follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walden. Thank you for your work, your testimony, your 
recommendations.
    And we will now go to Commissioner Rosenworcel. Thank you 
for being here this morning. We are delighted to have you back, 
and please go ahead.

                STATEMENT OF JESSICA ROSENWORCEL

    Ms. Rosenworcel. It is good to be back.
    Good morning, Chairman Walden, Ranking Member Eshoo, and 
members of the subcommittee. It is an honor to appear before 
you today in the company of my colleagues, new and old, at the 
FCC.
    By some measures, communications technologies account for 
as much as \1/6\ of our economy. No wonder. These are the 
networks that carry all aspects of our modern, commercial and 
civic life. They are changing at a breathtaking pace. Keeping 
up requires taking a fresh look at our policies. Informed by 
the policies of the past, we have to think boldly about the 
future.
    Now, in the weeks ahead we will do this as we wrestle with 
the upcoming transition to Internet protocol, and think about 
Spectrum Auctions, including Incentive Auctions, but I think we 
make a mistake if we focus only on networks themselves. After 
all, there is great beauty and power in what we can do with 
them.
    Our new networks can change the ways we connect, create and 
conduct commerce. They can change the ways we learn and seek 
security. So in my brief time before you today, this is what I 
want to talk about; how the broadband beneath us and the 
airwaves all around us can improve education and improve public 
safety.
    First, I want to talk about the E-Rate Program. E-Rate 
helps connect schools and libraries across the country to the 
Internet. It is a byproduct of the Telecommunications Act of 
1996. Remember 1996? Probably everyone in this room called the 
Internet the Information Super Highway. It was a long time ago.
    In 1996, only 14 percent of public schools were connected 
to the Internet. Today, thanks to the E-Rate, that number is 
north of 95 percent, which sounds good. It sounds like the job 
is done, but nothing could be further from the truth, because 
the challenge today is not connection, it is capacity. Too many 
of our E-Rate schools access the Internet at speeds as low as 3 
megabits. That is too slow for high-definition video, it is not 
fast enough for the most innovative teaching tools, and it is 
definitely not fast enough to prepare the next generation with 
the STEM skills that are so essential to compete.
    Contrast this with efforts underway in some of our world 
neighbors. In South Korea, 100 percent of schools are connected 
to high-speed broadband, and all schools are converting to 
digital textbooks by 2016. Ireland will have all schools 
connected to 100 megabits next year. Finland will have all 
schools connected to 100 megabits the year after that. 
Meanwhile, in both Turkey and Thailand, the government is 
seeking a vendor to supply tablet computers to millions of 
students for a new era of broadband-enabled digital learning.
    Now, we can wait and see where the status quo takes us and 
let other nations lead the way, or we can choose a future where 
all American students have the access to the broadband they 
need to compete, no matter who they are, where they live or 
where they go to school. I think it is time to compete. I think 
it is time for E-Rate 2.0. The FCC has a rulemaking proceeding 
underway to reboot and recharge the E-Rate Program. I think we 
need to make it a high priority. I think we need to find ways 
to bring 100 megabits to all schools in the near-term, and 1 
gigabit to all schools in the long-term. While we are at it, we 
must find ways to reduce the bureaucracy of this program, and 
make it easier for small and rural schools to participate.
    Second, I want to talk about a number all of us know by 
heart but none of us ever hopes to use. I want to talk about 
911.
    In my time at the FCC, I have visited 911 call centers all 
across the country. I am always struck by the steely calm of 
those who answer the phones and help ensure that help is on the 
way. I am also struck by how many emergency calls now come in 
from wireless phones. In fact, nationwide, more than 70 percent 
of calls made to 911 are made from wireless phones. That is 
more than 400,000 calls per day.
    Now, if you use your wireless phone to call 911 from 
outdoors, your location is reported, sometimes to within 50 
meters, under FCC location accuracy standards. But if you use 
your wireless phone to call 911 from indoors, you had better 
cross your fingers because no FCC location accuracy standards 
apply. I think this is an unacceptable gap in public safety 
communications. It deserves your attention and ours, because no 
matter where you are when you call 911, you want first 
responders to find you.
    Moreover, as our networks evolve and the ways we use them 
change, we must make sure our public safety policies keep pace. 
In fact, our approaches to networks, both wired and wireless, 
need to evolve as markets evolve, but in our efforts, we must 
not lose sight of why networks matter because they can do more 
than connect us, they can strengthen, education and enhance our 
security, and, of course, grow our economy in new and exciting 
ways.
    Thank you. I look forward to answering any questions you 
might have.
    [The prepared statement of Ms. Rosenworcel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walden. Ms. Rosenworcel, thank you for your work and 
your testimony and your suggestions.
    We go now to Commissioner Pai. Thank you for being here, 
and thank you for all the work you have been doing, and please 
go ahead with your opening statement.

                     STATEMENT OF AJIT PAI

    Mr. Pai. Thank you, Mr. Chairman. Chairman Walden, Ranking 
Member Eshoo, Members of the Subcommittee. Thank you for 
holding this hearing.
    It has been exactly one year since I last appeared before 
you, and much has happened in the time since. Most notably, we 
have lost two colleagues, and we have gained two new ones. 
Chairman Wheeler and Commissioner O'Rielly have gotten off to 
strong starts, and I am pleased that we are finally back at 
full strength.
    Over the past year, we have made progress in a number of 
different areas, but there is much more to be done. This 
morning, I will touch on two of the issues that I find most 
pressing: the Incentive Auction and E-Rate reform. A fuller 
list of FCC priorities, from cable forbearance to AM radio, is 
detailed in my written testimony.
    First, the Incentive Auction. Perhaps the most daunting 
challenge the Commission faces is the looming spectrum crunch. 
To meet this challenge, we are focused on implementing the 
responsibilities that Congress gave us in the Spectrum Act, 
especially with respect to the Broadcast Incentive Auction.
    The Incentive Auction is the Commission's best chance to 
push a large amount of spectrum, well suited for mobile 
broadband, into the commercial marketplace. I support Chairman 
Wheeler's recent announcement, setting the middle of 2015 as 
our new target. It is more important to get the Incentive 
Auction done right than it is to get it done right now. If, for 
example, any part of our software were to fail during the 
Incentive Auction, like another government Web site that shall 
not be named, the Commission, by law, would not get a second 
bite at the apple.
    My greatest worry about the Incentive Auction, however, is 
not with technology; it is about participation. In order for 
the Incentive Auction to be successful, we will need robust 
participation by both broadcasters and wireless carriers. So 
the Commission must avoid choices that will deter participation 
in both the Reverse Auction and the Forward Auction.
    For the Reverse Auction, prices paid to broadcasters should 
be determined by the market, not set by administrative fiat. 
Any attempt to restrict payments to broadcasters, including a 
complicated scoring scheme, will deter broadcasters' 
participation and risk causing the Incentive Auction to fail.
    For the Forward Auction, the Commission should not limit 
carriers' ability to participate, such as by setting a spectrum 
cap or narrowing the spectrum screen. This would result in less 
spectrum for mobile broadband, less revenue to fund national 
priorities that this Committee has identified, and a greater 
chance for a failed auction.
    Another issue that will impact participation in the Forward 
Auction is the size of the geographic licenses to be offered. 
Our NPRM proposed using Economic Areas, but some argue that 
this would make it too difficult for smaller carriers to 
participate in the auction. Our goal should be to allow as many 
carriers as possible to bid, whether they be nationwide, 
regional, or rural. So I am pleased to see alternative 
proposals for license sizes, such as the newly-coined ``Partial 
Economic Areas.'' If technically feasible, these proposals 
deserve serious consideration.
    Aside from the Incentive Auction, there are many other 
opportunities when it comes to spectrum, from the H Block 
Auction next month to the possible clearing of AWS-3 to greater 
unlicensed use in the 5 gigahertz band. Consistent with my all-
of-the-above approach, I hope we seize all of these 
opportunities in the near-term.
    The second issue I will discuss is the Universal Service 
Fund's Schools and Libraries Program, better known as E-Rate.
    In many ways, E-Rate has been a success, as my colleague 
has pointed out. But it also has had difficulties. The funding 
process can stretch for years. Many schools and libraries feel 
compelled to hire outside consultants to handle all the 
complexities. Others don't bother applying at all. Services 
like paging are prioritized over services like connecting 
classrooms, and there is no meaningful transparency into either 
the amount or the impact of E-Rate spending.
    To solve these problems, I proposed a Student-Centered E-
Rate Program. This means an upfront allocation of funding and a 
matching requirement so that applicants know how much money 
they can spend, and have greater incentives to spend that money 
wisely. This means simplifying the application process. This 
means targeting funding and next-generation technologies, while 
still letting local schools set their own priorities. And this 
means making all funding and spending decisions accessible on a 
central Web site that everyone can see.
    In its first year, a student-centered approach would 
provide an extra $1 billion for next-generation services, all 
without collecting an extra dime from the American people. 
Accordingly, I believe it would be premature to increase the 
program's budget. And under no circumstances should we do so 
without finding corresponding savings in other parts of the 
Universal Service Fund. We cannot ask Americans to pay even 
more in their monthly phone bills, especially when median 
household income in this country is now lower than it was in 
2007.
    Thank you once again to Chairman Walden and Ranking Member 
Eshoo for holding this hearing. I look forward to answering 
your questions, and to continuing to work with you and my 
colleagues in the months to come.
    [The prepared statement of Mr. Pai follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walden. Thank you, Commissioner Pai. We appreciate your 
thoughtful testimony and your recommendations.
    We will now go to Commissioner O'Rielly. Welcome aboard the 
Federal Communications Commission. Welcome back before this 
committee. And you know how the rules work, so please go ahead, 
and again, thank you for being here today.

                 STATEMENT OF MICHAEL O'RIELLY

    Mr. O'Rielly. Thank you to the Chairman and ranking member, 
and members of the subcommittee.
    In respect of the time of the subcommittee members, I would 
like to make five points and then move on to answer your 
questions.
    Point 1. I am truly honored to be before the subcommittee. 
I had the pleasure of working in front of the full committee 
staff for 8 years, and it was one of the greatest jobs I will 
ever have. The breadth of knowledge and command of the diverse 
policy issues by the members of this committee are of the 
highest quality.
    Point 2. The FCC is an independent agency, not part of the 
Executive Branch. It was created by Congress and serves to 
implement the statutes enacted by Congress. I firmly believe 
that our role is to follow the statute as written, and not 
substitute our thoughts for your work. The Commission has no 
right or authority to ignore the statute or statutory 
deadlines. Thankfully, I have worked on most communications 
policy statutes over the last 20 years, and have firsthand 
knowledge of the intent behind many key provisions.
    Point 3. The Commission has difficult but exciting work 
ahead. If done correctly, it can have a significant positive 
impact on U.S. gross domestic product and on national 
productivity. Our communications companies are extremely 
important to the U.S. economy, and we must allow them to 
flourish in the world marketplace. The Commission's overall 
focus, however, must remain on the consumer.
    Point 4. In terms of specific items, my particular focus 
and attention will be on the immediate work before the 
Commission. In the big picture, the FCC must finish rules for 
the Incentive Auctions, continue USF reform, proceed with the 
IP transition trials, and complete our media ownership 
proceeding.
    Point 5. Part of the role of the Commission is to conduct 
outreach and provide information to the public. I take this 
function seriously, and it is why I am choosing to spend some 
time on the issue of distracted driving caused by wireless 
device users. Drivers need to put away their wireless phones 
and focus their ``eyes on the drive.'' Let me be clear. My view 
is the wireless industry is doing yeoman's work to get out the 
message. They are aware of the problem, they are dedicating 
considerable resources to finding solutions and education, and 
they are working hard to prevent the horrible tragedies caused 
by texting, viewing, emailing, tweeting, mapping, posting, 
among others, while driving. It does not appear that more 
government regulation will be helpful in this space. Instead, I 
am talking to my colleagues to find ways to use our voice in 
non-regulatory, non-costly ways to educate the public and 
prevent senseless accidents.
    Thank you.
    [The prepared statement of Mr. O'Rielly follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walden. You win the prize. Two minutes and 37 seconds 
return. No, we want to thank you all----
    Mr. O'Rielly. I'm familiar with this committee very well.
    Mr. Walden. Yes, that is right. Yes indeed. Some will learn 
along the way. We appreciate all your testimony and your 
recommendations, and it is just good to have all five 
Commissioners in place, or four Commissioners and Chair in 
place. As Commissioner Pai said, it has been a year to the day, 
I think, since we had the Commissioners here, so welcome 
aboard.
    I know we all have a lot of questions. I am going to--I 
have learned at the heels of the former Chairman, Mr. Dingell, 
about trying to get answers at a relatively rapid rate, so I am 
going to try and pose some of these, not as skillfully as he 
does, in a yes-or-no format, but the extent to which you can 
address them rapidly, and that would be good.
    And I want to start, Mr. Wheeler, with you as Chairman. I 
know you all are voting on this NPRM today. I do want to 
stress, it would be helpful if the public got to see that. As 
far as I know, you and your staff are the only ones who see it 
in advance. That is one of the process issues I hope you will 
break through, and this maybe will be the last NPRM that is not 
public first. But the Commission--I want to follow up and 
figure out how you are going to permit, as your testimony 
indicates, airlines to choose whether to allow voice calls, and 
here is why I ask it. Is the Commission planning to waive 
either the common carrier obligation to complete calls, or the 
net neutrality rules on blocking VoIP packets? Both would seem 
to be necessary in order to prevent voice calling from 
aircraft.
    Mr. Wheeler. So thank you, Mr. Chairman.
    So first to your point that the NPRM that we are 
considering today will be complete in listing the rule--the 
words of the rule----
    Mr. Walden. Right.
    Mr. Wheeler [continuing]. That we are considering. In light 
of the philosophy that----
    Mr. Walden. Right.
    Mr. Wheeler [continuing]. You and I share, which is let us 
get it out there so people can see it.
    Mr. Walden. Right.
    Mr. Wheeler. The purpose of this is to do just that; to put 
the language out so people can see it and give us their 
comments on it.
    Now, to your specific question, the Open Internet Order 
specifically provides what is called the premises exemption, 
and that means that coffee shops, bookstores, and airlines 
mentioned by name, are exempted from the Order in that, under 
the definition of reasonable network management, which is one 
of the tools that are allowed for premises owners, which 
include airlines, there is the ability to pick and choose 
exactly what comes over.
    Mr. Walden. All right. We will follow up more on the other 
piece that you might have to deal with as well.
    I want to ask you about Title II. You have a--you haven't, 
but there has been a proceeding open at the Commission for a 
long time that would--the reclassification docket. Are you 
planning to keep that open or are you planning to close it?
    Mr. Wheeler. So I think we are in a situation right now 
where we are waiting for a court opinion on exactly what our 
authorities are on a broad sense, and that there is no rush 
between now and then to make a decision on Title II. I will 
note, however, that, as you mentioned, this docket has been 
open for a long time, and it has not had the threatened 
chilling effect that some had worried about on investment in 
wireless and broadband infrastructure. This is an issue that 
clearly is going to have to be dealt with----
    Mr. Walden. Right.
    Mr. Wheeler [continuing]. And we will start with the court 
decision.
    Mr. Walden. Sorry, I have about three more questions I want 
to try and get in here.
    We understand the FCC has launched a study, a multimarket 
study, of critical information needs. Apparently the study 
includes a qualitative media analysis which would require 
interviewing reporters and editors to figure out how the media 
decide what news stories to run. Are these the kinds of 
questions that government entities should be asking of the news 
media? And with somebody with a journalism degree, I do get a 
little chill up my spine thinking about the government asking 
how these decisions are made. Doesn't it have an effect on the 
media that the regulatory body is even asking these questions, 
and how does it help you fulfill your Section 257 mandate fund 
which is predicated?
    Mr. Wheeler. So I think this goes back to the root of the 
discussion you and I were having a moment ago about making sure 
that the public understands what is going on. The 257 
requirement mandates lowering barriers to access to media for 
minorities, women, small business and other identified groups.
    In order to make that kind of a judgment, you have to have 
facts. In order to have facts, you do studies. And what we did 
was, there is a study that has been proposed by a consulting 
firm that we were working with, and we put that out for public 
notice to exactly get the kind of input----
    Mr. Walden. All right.
    Mr. Wheeler [continuing]. That you are suggesting----
    Mr. Walden. All right, I----
    Mr. Wheeler [continuing]. But it is not, and this is not an 
effort to influence the media.
    Mr. Walden. Well, I am going to interrupt you just a second 
because when you are spending somewhere between $209,918, and 
some of the questions of the media personnel include what is 
the news philosophy of the station, who decides what stories 
are covered, what are the demographics of news management 
staff, have you ever suggested coverage of what you consider to 
be a story with critical information or consider its use, what 
was the reason given for the decision, these seem like really 
internal journalistic issues.
    Now, I need to move on to one other because I am actually 
over, but it is a very important question. The quantile 
regression analysis, QRA, approach to provide universal support 
for world companies, that was part of the Commission's USF 
reform efforts, has had a negative impact, negative impact, on 
investment and the deployment of broadband services in rural 
America. Commissioner Pai, you have been an advocate for the 
need to address this problem, to ensure that rural Americans 
are not left behind. What do you recommend, Commissioner Pai, 
needs to be done with regard to the application of the QRA?
    Mr. Pai. Well, thank you for the question, Mr. Chairman.
    I have seen the problems on paper. The Obama 
Administration's Department of Agriculture, for example, 
reported earlier this year that some 37 percent of funds from 
RUS are sitting on the table because there is so much 
uncertainty among rural carriers. And I have seen it in person 
from my home state of Kansas to carriers in rural Alaska. 
Because they are uncertain about what the future portends, 
because of the QRA, they are not making additional investments 
in terms of broadband, and that creates a digital divide that 
we won't be able to bridge.
    Mr. Walden. So, Chairman Wheeler, if I might, given the 
negative impact of the QRA that it is having on broadband 
development, especially in rural America, do you intend to 
reconsider its application?
    Mr. Wheeler. Yes. As a matter of fact, I have asked the 
Bureau to draft an Order that I could share with my colleagues 
to eliminate the QRA and to return to the high-cost loop 
support model.
    Mr. Walden. I appreciate that. I have got other issues 
obviously with the FM translators for AM, and delay in the 
rulemaking, dealing with cable operators and the groups 
utilized by them, and so maybe we can follow up afterwards, but 
the committee has been kind to let me overextend my 
questioning, but we are usually fairly flexible on that here.
    So I will now turn it over to the ranking member from 
California, Ms. Eshoo.
    Ms. Eshoo. That is great. So I have 7 minutes, right, Mr. 
Chairman?
    Mr. Chairman, you said that it is your 39th day. What I 
would like to add to that is that I think your adult lifetime 
of work has brought you to this. So it is not just really the 
39th day----
    Mr. Wheeler. It has been a long lifetime I think.
    Ms. Eshoo [continuing]. It is a wonderful path that has 
prepared you for this position.
    I have a whole list of niche issues, which is really the 
way we deal with all of these things.
    First of all, do you think you are going to get a deal on 
cell phone unlocking by the end of this year?
    Mr. Wheeler. We will be presenting to the Commission today, 
the voluntary agreement that has been reached with the wireless 
industry. And so the answer to your question is strongly yes.
    Ms. Eshoo. That is just terrific. My second question to 
you, Mr. Chairman, is last week, as you know, I joined with my 
colleagues, Representatives Doyle and Matsui, to ask you to 
take action to prevent AT&T from implementing a significant 
rate hike for their special access customers. I appreciate what 
you have done in terms of the suspension, but I think that 
there is much more than needs to be done on special access 
reform.
    Can we expect further action on special----
    Mr. Wheeler. I----
    Ms. Eshoo [continuing]. Access reform?
    Mr. Wheeler. I apologize, Ms. Eshoo, but I am currently 
recused from that----
    Ms. Eshoo. OK.
    Mr. Wheeler [continuing]. Proceeding, and so----
    Ms. Eshoo. I see. So how will it happen?
    Mr. Wheeler. It moves ahead with the other members of the 
Commission.
    Ms. Eshoo. I see. Well, I am just going to assume that they 
are going to--that this area is going to be examined because we 
really have to have reasonable rates for this important 
service.
    Commissioner Rosenworcel, thank you for your testimony. I 
love the way you present things. It is so clear. You can feel 
the sense of urgency and why it is urgent.
    How are you going to pursue getting this done at the 
Commission? The whole issue of E-Rate, everything that is 
attached to it, you have presented an eloquent case, and I 
think that you gave a fantastic speech last week on 911 and the 
problems that we have between indoor and outdoor. So on both 
that and the E-Rate, maybe I should be asking the Chairman what 
he plans to do on E-Rate. I know what you want to do, but maybe 
we should just switch over to Chairman Wheeler.
    Mr. Wheeler. Well, I think on E-Rate, that there is a 
leader in this Commission, and that Commissioner----
    Ms. Eshoo. We only need five.
    Mr. Wheeler. What?
    Ms. Eshoo. We only need five.
    Mr. Wheeler. I would like to associate myself with the 
remarks of----
    Ms. Eshoo. Good. Good.
    Mr. Wheeler [continuing]. Ms. Rosenworcel.
    Ms. Eshoo. Well, we will look forward to you joining her in 
that effort, and maybe the next time the Commission comes 
before us, you can tell us the steps that you are going to 
take.
    Mr. Wheeler. We are going to put out a schedule, just like 
we have for the Incentive Auction and the IP transition, to 
address this issue.
    Ms. Eshoo. That is terrific. On the challenge of the indoor 
versus outdoor and wireless and 911, what is your plan to 
address this?
    Ms. Rosenworcel. Well, as the old saying goes, you may only 
make one 911 call in your life, but it will be the most 
important call----
    Ms. Eshoo. Right.
    Ms. Rosenworcel [continuing]. You will ever make.
    Ms. Eshoo. Yes.
    Ms. Rosenworcel. And right now, if you make that call from 
your wire line phone, your first responder knows exactly where 
you are.
    Ms. Eshoo. Right.
    Ms. Rosenworcel. If you make that call outdoors, in a 
field, using your wireless phone, we have location accuracy 
standards so that first responder----
    Ms. Eshoo. Well, I am asking----
    Ms. Rosenworcel [continuing]. Can find you.
    Ms. Eshoo [continuing]. What you want to do about where the 
challenge lies.
    Ms. Rosenworcel. So----
    Ms. Eshoo. We know what is working.
    Ms. Rosenworcel [continuing]. Indoors----
    Ms. Eshoo. Yes.
    Ms. Rosenworcel [continuing]. Is the problem. We have no 
standards. And increasingly, household are cutting the cord. 
More than \1/3\ of households rely exclusively on their 
wireless phones. So I don't think it is acceptable that when 
people make emergency calls, first responders can't find them.
    Ms. Eshoo. Yes.
    Ms. Rosenworcel. I have recommended in that speech that you 
mentioned that we start a rulemaking to address this, because 
we have heard both from carriers----
    Ms. Eshoo. Yes.
    Ms. Rosenworcel [continuing]. And from public safety 
officials on the frontline that this is an issue that----
    Ms. Eshoo. Well, good for you for identifying this and 
taking it up, because I think one of the things that I taught 
my children from their earliest memory was 911, and putting 
their little fingers on the keypad so that they would 
understand that, and I think----
    Ms. Rosenworcel. Me too.
    Ms. Eshoo [continuing]. You are absolutely right. 
Commissioner Pai, you made a wonderful comment, something about 
not one dime more on phone bills. I want to raise something 
with the Chairman, going back to it, about below-the-line fees. 
Representatives Doyle, Lujan, Matheson, myself, we wrote to our 
Nation's leading wireless and wire line providers and we asked 
them about their practice of applying below-the-line fees on 
monthly bills. I agree with Commissioner Pai. That is why we 
wrote. We have a concern about what people are paying. These 
things are hidden. They think that they are--they think 
everything on their bill is a tax. And I have to tell you, I 
brought my bills in. I couldn't tell what the heck they were. 
Who was doing what to whom and what it was for. So tell me what 
you think the Agency, or if you have--I know there is a long 
list of big challenges, but these are still important issues 
for consumers. What steps can the Agency take under existing 
statute to ensure that consumers know exactly how much they are 
paying each month, especially prior to signing up for their 
service, and this whole issue of below-the-line fees?
    Mr. Wheeler. Yes. Ms. Eshoo, this is a very legitimate 
concern. The specific one I believe you are referencing is a 
re-transmission consent----
    Ms. Eshoo. That too.
    Mr. Wheeler [continuing]. The charge----
    Ms. Eshoo. Yes.
    Mr. Wheeler [continuing]. That cable operators have just 
begun putting on----
    Ms. Eshoo. Right.
    Mr. Wheeler [continuing]. The bill.
    Ms. Eshoo. Right.
    Mr. Wheeler. And I say just begun, and I am trying to get 
our arms around that and figure out just exactly what our 
authorities are to answer your question. It does, however, 
strike me that it fits right in, the broader issue that the 
Chairman and Mr. Upton and others have talked about in terms of 
the kinds of issues that need to be addressed in a Telecom Act 
rewrite here, is just what is going on. If they are----
    Ms. Eshoo. Yes, but that will be like 7 years from now.
    Mr. Wheeler. Well, no, but I----
    Mr. Walden. Oh, no.
    Ms. Eshoo. Well, yes.
    Mr. Wheeler. I won't speak----
    Ms. Eshoo. Let us see.
    Mr. Walden. I won't get crosswise between you and the 
Chairman.
    Ms. Eshoo. OK. Yes, no. Thank you. Thank you, Mr. Chairman, 
and thank you Chairman Walden.
    Mr. Wheeler. Thank you.
    Ms. Eshoo. And thank you to the entire Commission. I want 
to say also a welcome to the whole new team that has come in, 
and we wish you well, we really do. And the Chairman and the 
Commission will operate at a higher level because of the high 
level of people that have come in to support the work. So 
congratulations to each one of you.
    Mr. Walden. We will now move on to the vice chair of the 
full--of the subcommittee, Mr. Latta, from Ohio from 5 minutes.
    Mr. Latta. Thank you very much, Mr. Chairman. Again, thanks 
very much for our Commission members for being with us today.
    And this is a question I would like to ask all of you, and 
this question is, the Incentive Auction legislation prohibits 
the FCC from excluding qualified bidders from the auction. And 
fortunately, while the Incentive Auction process works its way 
up to the Commission, it appears that the Wireless Bureau is 
simultaneously working on the ``spectrum aggregation'' docket 
to achieve--de facto spectrum caps. Will you commit to allowing 
any interested bidder that complies with the statutory 
requirements to participate fully in the auction? And, 
Chairman, if I can start with you, because I notice in your 
testimony on page 6 that you talk about the Incentive Auction, 
you had said that you are looking at a voluntary market 
oriented approach, so if I could start with you.
    Mr. Wheeler. The statute is quite explicit in that regard 
that the Commission may not exclude somebody from 
participating.
    Mr. Latta. And also, what about aggregating, would it be 
wide open for everyone to be involved in that?
    Mr. Wheeler. Well, it is interesting with the--what has 
been developing here. I mean the CEO of AT&T recently came out 
with a statement saying, wait a minute, I think I would like to 
have rules to make sure that not one party can run away with 
all the spectrum. So I think there is--in between those 
positions is where reality exists, but the statute, I agree, is 
quite clear. The statute says that you will not exclude 
anybody, and the statute also says that the Commission will 
design an auction so as to promote economic opportunity and 
competition and consumer choice to sustain a healthy wireless 
marketplace, and we will do both.
    Mr. Latta. Madam Clyburn.
    Ms. Clyburn. Yes, Section 6404 is clear that any party that 
abides or obeys the rules, that they are qualified to 
participate. It also makes clear that the Commission has the 
authority to enforce and introduce rules of general 
applicability that will allow for spectrum aggregation in order 
to promote competition. So again, my colleague mentioned that 
part of the reason for, I think for some of the robust 
participation and the type of ideas that we are seeing is 
because we took a dual path on the same day we released the 
rules, or released the notice of opposed rulemaking on 
Incentive Auction, we also released a notice of proposed 
rulemaking on trying to glean information about this dual path. 
So I think that this, in the long run, will help and improve 
our information and information dissemination and our 
acquisition and rulemaking once we decide on a clear path 
forward.
    Mr. Latta. Thank you. Commissioner?
    Ms. Rosenworcel. The Middle-Class Tax Relief and Job 
Creation Act says that we can have rules of general 
applicability, but we cannot exclude anyone from participation 
in the auction. I think it is easy and simple; we just have to 
follow the law.
    Mr. Latta. Commissioner Pai?
    Mr. Pai. I would agree with my colleague, and I would also 
point out that if you look at the end goal which is to have a 
successful auction that pushes out a lot of spectrum, yields 
sufficient revenue to fund national priorities, and provides 
fairness to all parties involved, then we should not 
preemptively deter participation from wireless carriers by 
adopting unduly strict spectrum policies.
    Mr. Latta. Commissioner O'Rielly?
    Mr. O'Rielly. I want to thank my colleagues for stating 
that the statute is clear because, as one of many people who 
worked on it, it was an effort to give the Commission some 
authority in this space when members couldn't come to 
agreement. I am extremely hesitant to impose limitations on 
spectrum holdings because we have certain other obligations 
under the statute. In a nice way, I mean the money from the 
auctions has already been spent. We have already spent the 
money from the Spectrum Act, and so we have obligations to 
provide $7 billion for FirstNet, and we have deficit reduction 
numbers that have already gone out the door. So I am worried 
about anything that would depress auction revenues. I am 
certainly aware of the statute and I want to remain open-
minded, but I am hesitant at this time to impose any type of 
limitation.
    Mr. Latta. Thank you. And many of you know that rural call 
completion has been an ongoing issue in my district, and I 
commend the FCC for producing the November 8 Order and Further 
Notice of Proposed Rulemaking to improve the Commission's 
ability to monitor the delivery of calls to rural areas by 
mandating certain recording, retention and reporting 
requirements from carriers. And, Commissioner Pai, do you 
believe the November 8 Order will resolve the call completion 
problem or does more need to be done?
    Mr. Pai. Congressman, I certainly hope that it will. 
Whether it is Toledo or Topeka, we need to figure out where the 
kink in the system is, whether it is intermediate providers, 
whether it is last-mile, what point in the network is failing. 
And if it is a technical problem, then we can take steps to fix 
that technical problem, but if it is something else, then the 
FCC needs to be empowered to take corrective action. So I 
certainly support taking the appropriate actions sooner rather 
than later on that issue.
    Mr. Latta. Thank you very much.
    Mr. Chairman, I see my time has expired and I yield back.
    Mr. Walden. Thank the gentleman.
    We now turn to the ranking member of the full committee, 
Mr. Waxman, for 5 minutes.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    I just want to indicate that under the Act, the FCC may not 
single out a specific provider for exclusion from a system of 
competitive bidding. At the same time, the FCC is permitted to 
adopt and enforce rules of general applicability that promote 
competition. Even AT&T recently acknowledged they would support 
rules that limit the amount of spectrum any one company could 
acquire as long as the rules applied evenly to all auction 
participants.
    Chairman Wheeler, as you know, I am a strong supporter of 
the FCC's open Internet rules because I believe the Internet 
must remain an open platform for innovation and commerce. You 
have emphasized the importance of the Open Internet Order. At 
the same time, you recently made comments suggesting that an 
Internet service provider could charge a content provider, such 
as Netflix, a fee in order to guarantee the best available 
transmission speed. Do you see these type of business 
arrangements as consistent with the FCC's open Internet rules 
that you support?
    Mr. Wheeler. Thank you, Mr. Waxman, for raising that issue 
because it gives me an opportunity to get more specific than I 
was in Ohio.
    I am a strong supporter of the open Internet rules, full 
stop. The rules were written in such a way as to envision 
opportunities for innovation and experimentation, and to impose 
on them a balance between protecting the open Internet, 
protecting consumers and stimulating innovation. New ideas 
under the Open Internet Order, new ideas such as those you have 
referenced, in a wireless environment particularly, are not 
prohibited, but there is a clear responsibility for the 
Commission to make sure that what takes place does not 
interfere with Internet access, is not anticompetitive, and 
does not provide preferential treatment, and we will enforce 
that. We will maintain the balance between innovation and 
assuring there is an open Internet.
    Mr. Waxman. I appreciate your expanding on that issue. 
While network infrastructure and technology have changed since 
the passage of the 1996 Telecommunications Act, the values 
embedded in the Act have not. And, Mr. Chairman, I know that 
the Commission will soon begin a process to collect real-world 
information and data on the IP transitions. How will the 
Commission continue to advance the longstanding goals of 
competition, universal access and consumer protection 
throughout this transition process?
    Mr. Wheeler. You know, Mr. Waxman, there are many people 
who have described the IP trials as a technology trial. I don't 
think they are a technology trial. We know how to build IP 
networks. They are exactly what you just phrased. They are a 
values trial. They are how do we make sure that the values 
that, for 100 years, Americans have come to expect from their 
networks continue even after the way in which that network 
operates changes. And that is what we are going to be looking 
for in these trials. It is not whether the guzintas and the 
guzouttas wash. We know that can get taken care of. It is how 
do you preserve the values in the new technological 
environment?
    Mr. Waxman. Commissioner Rosenworcel, do you want to add 
anything to that?
    Ms. Rosenworcel. I think there are so many exciting things 
that can come with new networks, and I think we should embrace 
the future rather than reject it. So I think experimenting in 
these kind of trials is a smart way to go, but as we move into 
the future, what we do has to be informed by the values that 
have always been a part of communications policy. And I see 
four: public safety, universal access, competition and consumer 
protection.
    Mr. Waxman. OK. Commissioner O'Rielly----
    Mr. O'Rielly. Yes, sir.
    Mr. Waxman [continuing]. I appreciate your appeal to 
bipartisanship in your testimony, and I know you played an 
important role in helping us get bipartisan legislation in the 
passage of the Public Safety and Spectrum Act last year, 
because you helped negotiate the provisions and the 
availability of unlicensed spectrum in the Broadcast Incentive 
Auction.
    What is your perspective on unlicensed spectrum generally, 
and do you think the Commission is on the right track in 
balancing the availability of unlicensed and licensed bands?
    Mr. O'Rielly. Yes, I am a strong proponent of unlicensed 
spectrum. I am always amazed what the innovators and the 
experimenters can do with unlicensed spectrum. I think there is 
great opportunity in 600 MHz for more unlicensed spectrum. The 
NPRM that was put out on this matter proposed a number of 
different ideas where unlicensed could fit. The Commission 
proposed Channel 37, the guard bands, if there are going to be 
guard bands, depending on what our band plan looks like. We 
talked about wireless microphones. There's still going to be 
white space at least in 500 MHz, maybe in 600 MHzas well. And 
then there are going to be residual conversions depending if 
you are talking about converting from 6 megahertz broadcast 
channels to 5 megahertz wireless channels. So there should be 
opportunities in the Incentive Auction proceeding after our 
rules are complete for unlicensed spectrum, and I am strongly 
supportive of those.
    Mr. Waxman. Thank you.
    Mr. O'Rielly. The only difficulty is figuring out how big 
those guard bands should be.
    Mr. Waxman. OK, thank you. And my last question is to 
Commissioner Pai. You stated in your testimony that 92 percent 
of Americans now can choose from 10 or more wireline 
competitors. If that number is accurate, doesn't it demonstrate 
that the procompetitive policies of the '96 Telecom Act are 
working, and don't you believe we should continue to support a 
marketplace that gives non-incumbents a fair chance to compete?
    Mr. Pai. Congressman Waxman, thank you for the question. I 
think what the multiplicity of choices that consumers enjoy 
today demonstrates is that in the IP environment where you have 
convergence, something that we only dreamed about during the 
'96 Act--where you have telephone companies competing with 
cable companies competing with wireless companies and others to 
provide the same services that we can now rely in a way we 
could not in 1996 on the marketplace and technological 
innovation to drive consumer choice. And so to the extent that 
there are values of competition embedded in the 1996 Act, I, of 
course, embrace those, but I think we also need to be mindful 
of the fact that technology can quite often outpace where laws 
and regulations are, and that appears to be where we are with 
respect to the IP transition.
    Mr. Waxman. Yes, but do you think we should support a 
marketplace that gives non-incumbents a fair chance to compete?
    Mr. Pai. Absolutely. I think the marketplace should give 
every competitor a fair chance to compete.
    Mr. Waxman. Thank you. Thank you, Mr. Chairman.
    Mr. Walden. Now turn to the gentleman from Michigan, Mr. 
Rogers.
    Mr. Rogers. Thank you very much, and as the representative 
of Michigan State University, I want to say thank you for 
giving me a great weekend. I appreciate that. I do find it 
suspicious, however, that my phone has not worked since the 
game.
    Mr. Wheeler. Yes.
    Mr. Rogers. I wonder if you might be looking into that for 
me, Mr. Chairman.
    The FCC's recent Communications Security Reliability and 
Interoperability Council meeting----
    Mr. Wheeler. Right.
    Mr. Rogers [continuing]. I understand you talked about the 
need to apply metrics and evaluate cyber security. Can you 
elaborate on that for me?
    Mr. Wheeler. The CSRIC, which is the shorthand for the 
group you are talking about, has done a terrific job in using 
the multi-stakeholder process to come up with rules on botnets, 
on DNSSEC, on router security, important kinds of network 
security issues, but it is not enough just to say, OK, here are 
the rules, and then walk away. The question is, are the rules 
working. And so what I had asked CSRIC to do, not for us to 
impose but in the multi-stakeholder process, is to say how do 
you establish metrics to know if this is working, because that 
is the trust-but-verify kind of a situation.
    Mr. Rogers. Well, how do you find those--how are you 
working through that process to define metrics in threats that 
change literally by the hour?
    Mr. Wheeler. So on those 3 issues, for instance, on 
botnets, for instance, how can you track the movement of where 
botnets are going, they seem to have moved into data centers, 
for instance, and what do we know about that and what might 
that suggest, and what are we seeing in terms of results of the 
implementation of the kinds of things that CSRIC has suggested. 
That is what we need to know.
    Mr. Rogers. All right, and if you find that out, and you 
find that you are in some disagreement with industry on meeting 
those standards, do you foresee a regulatory scheme?
    Mr. Wheeler. Well, I wouldn't want to presume a 
hypothetical. I would hope that we would be working with 
industry to identify what needs to be done, and much like we 
are going to announce today on cell phone unlocking when we sat 
with industry and said, here is a problem, it has to be solved, 
and by the way we will have metrics on that. I think that is 
the preferable first approach, and that is the approach that we 
are taking with CSRIC.
    Mr. Rogers. But when you say that, does that mean--if I 
hear you correctly, that means you are at least contemplating a 
regulatory scheme of some sort, beyond just the voluntary here 
is our metrics, try to----
    Mr. Wheeler. Yes, that is----
    Mr. Rogers [continuing]. Meet those metrics.
    Mr. Wheeler [continuing]. That is the right question but it 
is not--the key word is contemplating. I have talked repeatedly 
about what I call the seesaw, the regulatory seesaw. You do 
this, we don't need to do this. And so what CSRIC is doing is 
saying, OK, here are the kinds of things that need to be done. 
Saying let us measure them, make sure that is going because the 
result is that we don't. If the seesaw has to tip, it has to 
tip, but it only tips on the basis of need, not the basis of 
theory.
    Mr. Rogers. If I understood your answer, there is a 
possibility you could regulate.
    Mr. Wheeler. There is always the possibility, sure.
    Mr. Rogers. Yes, OK, we should have lots of conversations 
on that. I worry that by the time you have processed your 
regulatory framework, you are too late, you have missed the 
boat, the threat changes----
    Mr. Wheeler. I----
    Mr. Rogers [continuing]. They have moved down the--OK.
    Mr. Wheeler. I could not agree more. The challenge of 
networks and the reason why the multi-stakeholder process is 
preferred----
    Mr. Rogers. Yes.
    Mr. Wheeler [continuing]. Is because it is much more 
dynamic, much more flexible, moves much quicker than a 
regulatory process can, and then can stay flexible.
    Mr. Rogers. OK.
    Mr. Wheeler. And that is why I am trying to say, yes, this 
is the preferred process to deal with.
    Mr. Rogers. So you are not going to move away from the 
council?
    Mr. Wheeler. I am sorry?
    Mr. Rogers. You are not going to move away from the council 
model for regulation, you are going to continue to try to use 
that.
    Mr. Wheeler. The multi-stakeholder process----
    Mr. Rogers. Yes.
    Mr. Wheeler [continuing]. On this is the right way to go.
    Mr. Rogers. Perfect. Can you talk about Team Telecom? It is 
an important compliment to the CFIUS process----
    Mr. Wheeler. Right.
    Mr. Rogers [continuing]. In terms of preventing investments 
or IT equipment purchases to prevent, certainly, a threat to 
our national security interests, like Chinese attempts to gain 
control of IT and telecommunication notes in the United States. 
Can you walk us through where you are at on that to give us 
some idea where you are--what you are thinking?
    Mr. Wheeler. Well, when issues come before the Commission 
relative to mergers, acquisitions, whatever the case may be, 
the input from Team Telecom is always sought and taken into 
account, and is crucially important.
    Mr. Rogers. Yes. Do you see an improvement to that process? 
Can we do something different? You have a limited set of--once 
that report comes back, you have a limited set of decisions you 
can make. You are either in, you are out----
    Mr. Wheeler. Correct.
    Mr. Rogers [continuing]. Or you disagree with the decision. 
Is there something better we should be doing there, providing 
some authority for you all to be, given again, the nature of 
the changing technology and how fast the changes----
    Mr. Wheeler. I have not had to live through one of these 
yet, so I am probably not qualified to opine here on the fly. I 
would love to look into this and to have a discussion with you 
about it.
    Mr. Rogers. We are looking at some reforms to CFIUS to try 
to make sure we are keeping up, and I look forward to that 
dialog.
    Mr. Wheeler. Great. I will look forward to that.
    Mr. Rogers. Thank you very much for being here.
    Mr. Walden. Thank you, gentlemen.
    We will now turn to committee chairman emeritus, Mr. 
Dingell, for--also from Michigan, I believe, for 5 minutes. Go 
ahead, Mr. Dingell.
    Mr. Dingell. Mr. Chairman, I commend you for this very 
important hearing, and I have no comments on football or other 
matters.
    I want to welcome my old friend, Chairman Wheeler, to the 
committee. We look forward to great things from you. I am 
satisfied you will serve will distinction. I want to also 
welcome Commissioner O'Rielly, and I want to commend 
Commissioner Clyburn for her fine service as Acting Chairwoman. 
Quite frankly, your daddy would be very proud.
    My questions this morning are going to be directed solely 
at Chairman Wheeler, and will elicit, as you not be surprised 
to hear, yes or no responses.
    Chairman, I would like to start with the Reverse Auction of 
Broadcast Frequencies, authorized by the Middle Class Tax 
Relief and Job Creation Act. I note you recently announced that 
the Commission will not conduct such auctions until 2015. That 
gives you an extra year. In the meantime, do you expect to 
complete negotiations concerning the relocation of broadcast 
frequencies with Canada, Mexico and our border areas, yes or 
no?
    Mr. Wheeler. No, but, am very hopeful that we will be able 
to move it forward, and as DTV showed, you don't have to have 
the signature on the page.
    Mr. Dingell. And you know that that can cause an awful lot 
of viewers to lose service, and an awful lot of screens to go 
dark in our part of the country. Chairman Wheeler, similarly, 
paragraph 15 of the Commission's notice of proposed rulemaking 
for the Incentive Auction states, ``the Commission expects 
interested parties will have an opportunity for meaningful 
comment on all specific repackaging methodologies it is 
considering before it makes a decision.'' Does the Commission 
publicly commit to sharing with the public the broadcast 
frequency repackaging methodology it adopts, as well as the 
variables and other inputs it may use to predict repackaging 
results, yes or no?
    Mr. Wheeler. I will go beyond yes and say absolutely.
    Mr. Dingell. Now, Mr. Chairman, let us move on to the 
Forward Auction of Broadcast Frequencies. Section 6403(C) of 
the Middle Class Tax Relief and Job Creation Act provides the 
Commission may not grant licenses through Forward Auction, 
reassigned or reallocated broadcast frequencies, or revoke 
spectrum usage right unless it proceeds--unless the proceeds of 
the Forward Auction are greater than the following 3 factors 
combined. First, the total amount of compensation the 
Commission must pay successful bidders in the Reverse Auction, 
the costs of conducting a Forward Auction, and the estimated 
costs for the Commission to pay for broadcaster reallocations. 
In addition, it is in the public interests that the Commission 
ensure the auction raises a significant amount of money in 
order to help build out of the FirstNet. Together, these 
constitute a significant pressure on the Commission to raise 
sufficient revenues to accomplish these objectives. Do they 
not, yes or no?
    Mr. Wheeler. Yes.
    Mr. Dingell. Now, Mr. Chairman, at the end, will the 
Commission adopt transparent and simple rules to encourage 
participation by the broadest group of wireless providers in 
the Forward Auction, yes or no?
    Mr. Wheeler. Yes.
    Mr. Dingell. Mr. Chairman, it is--let us focus our 
attention on intelligent transportation systems. This is of 
considerable importance to my part of the country and our 
principle industries, and the 5 gigahertz band. Given that the 
Commission licensed ITS almost 15 years ago, is it reasonable 
to say that it would be premature for the Commission to 
authorize unlicensed use of the 5850-5925 megahertz band before 
the studies are completed, that confirm such use would not 
cause harmful interference with ITS services and other 
incumbent users, yes or no?
    Mr. Wheeler. Yes, and let me go further. We will not 
authorize if there is harmful interference.
    Mr. Dingell. I am very comforted that you are here this 
morning, Mr. Chairman. Now, Chairman Wheeler, do you believe 
that the Commission should approve unlicensed use of the 5850-
5925 megahertz band before definitively establishing no risk of 
harmful interference with ITS systems or practical strategies 
to mitigate such risk, yes----
    Mr. Wheeler. No, and I repeat, will do nothing that causes 
harmful interference.
    Mr. Dingell. Now, Mr. Chairman, alternately, is the 
Commission considering moving forward with rulemaking opening 
up only the 5350 megahertz band for unlicensed use, yes or no?
    Mr. Wheeler. So this is where I need to just ask a 
question, sir. The answer is yes, if it is are we considering. 
The answer is no, if we have decided.
    Mr. Dingell. Now, Mr. Chairman, I would like to commend you 
for your work in advancing the transition to IT-based networks. 
Will the Commission consider an Order in January 2014 that will 
address geographic trials, as well as how to protect in the 
best way consumers using IT-based networks, yes or no?
    Mr. Wheeler. Yes.
    Mr. Dingell. Mr. Chairman, you have been most gracious to 
me, and I thank you for this.
    Mr. Chairman, your comments have been most enlightening and 
helpful. I want to thank you and the members of the Commission 
for your presence and assistance throughout this morning. Thank 
you, Mr. Chairman.
    Mr. Walden. Thank you very much. The gentleman yields back, 
and the Chair now recognizes for 5 minutes Mr. Guthrie.
    Mr. Guthrie. Thank you, Mr. Chairman. I appreciate that.
    Chairman Wheeler, and welcome to the FCC also, Mr. 
O'Rielly.
    Mr. Wheeler. Thank you, sir.
    Mr. Guthrie. I appreciate having you here. And, 
Commissioner Clyburn, again, I echo the good work that you did 
in your time as Chairwoman.
    But there seems to have been a lot of progress being made, 
this is to Chairman Wheeler, a lot of progress been made to 
free-up the 1755 to 1780 hertz band for commercial use, 
megahertz band, and I know the FCC has already sought comment 
on how this band should be used for commercial purposes. Is the 
FCC on track to auction the 1755 to 1780 band paired with the 
2155, 2180 band, and if so, when will it occur?
    Mr. Wheeler. So the answer is yes, we are on track. There 
are some issues that still have to be worked out with NTI and 
DOD and some----
    Mr. Guthrie. Are there some impediments----
    Mr. Wheeler [continuing]. Details, but I think--I am sorry, 
what?
    Mr. Guthrie. Are there some impediments that you can 
identify that are--that you are on track, but you say there are 
some impediments?
    Mr. Wheeler. Yes, I think these are just implementational 
kinds of things in their agreement, but to be specific to your 
question, we would hope that we could do it in the September 
time frame.
    Mr. Guthrie. September time frame, great. And then you 
spent some time in the wireless industry I know, and have seen 
firsthand how spectrum demand has grown exponentially. I 
realize that a lot of our short-term focus is on the Incentive 
Auction on the 1755 to 1780 megahertz, but looking forward, 
what is the FCC doing to plan for future spectrum demand, and 
how can the FCC ensure that there continues to be a pipeline on 
new spectrum to satisfy what consumers--an insatiable demand 
for bandwidth anywhere, any time. So to look at again, how do 
you plan for future spectrum demand beyond this? What kind of 
thoughts do you have----
    Mr. Wheeler. Sure.
    Mr. Guthrie [continuing]. Beyond this----
    Mr. Wheeler. Sure.
    Mr. Guthrie [continuing]. Forward Auction?
    Mr. Wheeler. Well, first we say yay and verily to what you 
and Ms. Matsui have done. Applying the Incentive Auction 
concepts to government spectrum, I am a believer that by the 
time that you peel everything away, it comes down to economics 
no matter who you are. Right? And the economics of an agency 
where they can get cash to help them fulfill their mission is 
an important kind of decision they should make. And you have 
created--with Ms. Matsui, have created a structure where this 
can happen.
    Mr. Guthrie. Well, we looked at that in our working group, 
and it is a lot of work for these agencies to do that. It is 
not something you can just wish away, as I learned more and 
more about it. And I always say I didn't run around Kentucky 
saying, send me to Washington and I will deliver you spectrum. 
And so you learn things when you get elected that you never 
thought you would deal with, and I have found this fascinating 
because, as I said, my constituents demand it. They want the 
fast bandwidth. So----
    Mr. Wheeler. But it is also----
    Mr. Guthrie [continuing]. But it is----
    Mr. Wheeler. It is interesting----
    Mr. Guthrie [continuing]. But it is true that we have to--
if we were looking at it just by law say, by Fiat say, you have 
to release spectrum, I mean you could get numbers, well, it is 
going to cost this, it is going to cost that, and so it does 
give them a reason to go in and make this happen.
    Mr. Wheeler. And the interesting thing is, I was involved 
in the negotiation for AWS-1 back in the year 2000, and the 
first negotiation with the Department of Defense, and we kept 
saying to them, but you are going to get money, and they kept 
saying, but we can't spend it because it goes to the General 
Treasury.
    Mr. Guthrie. Right.
    Mr. Wheeler. And so what you have done is set up a 
structure to help compensate people. The beauty of it is that 
what it does is that it creates a cash flow for them to be able 
to meet their new needs, and to be able to upgrade their 
equipment, and so it is a winning situation all around.
    Mr. Guthrie. That is like, Ms. Matsui, she said--I think 
yesterday you said, win, win, win, I think is what it does for 
the consumers, for the agencies and for the taxpayers. So 
beyond--so in the future, what are you kind of looking at, do 
you think should happen, just for bandwidth and more spectrum 
as we all move into the future?
    Mr. Wheeler. I am sorry, sir?
    Mr. Guthrie. Well, I must just as we move on into the--
beyond the immediate auctions and things, what other things do 
you think we can do to free spectrum?
    Mr. Wheeler. So first of all, we are constantly looking at 
how you get the most efficient use out of the spectrum. One of 
the interesting things that we are going to be running is a 
test on what do you do with spectrum sharing, because there is 
probably not--there is, in a digital world, the opportunity to 
share spectrum, but our spectrum allocations were set up with 
analog assumptions.
    Mr. Guthrie. Yes.
    Mr. Wheeler. And so if we can share it, reuse it, it is a 
great opportunity and we need to be pursuing that as well.
    Mr. Guthrie. Yes, a great metaphor of that I always thought 
was you don't have a lane on a highway dedicated just for 
emergency vehicles, but when emergency vehicles come down the 
highway, people get out of the way.
    Mr. Wheeler. Good point.
    Mr. Guthrie. And I think that is a great metaphor for that.
    Well, Mr. Chairman, I will yield back 15 seconds.
    Mr. Walden. Chair recognizes the gentlelady from California 
for 5 minutes.
    Ms. Matsui. Well, thank you very much, and let me just 
follow up on my partner's questions here.
    I know back in the day, you were looking at the use of 
federal spectrum, and I think it is a concept now that has 
finally come to the point where we can actually do something 
about it. And I believe that this is a way to really encourage 
the federal agencies to relinquish a non-critical spectrum, and 
as Congressman Guthrie says, it is not easy to do, but we 
worked with DOD and we made a lot of progress.
    Now, I am also looking at what Commissioner Rosenworcel has 
also always said about using the carrot-and-stick approach 
regarding the federal spectrum holders, and having them 
relinquish their spectrum. Now, in your view, and I also want 
Chairman Wheeler to comment on this too, are the financial 
incentives identified in the bill adequate to encourage federal 
agencies to relinquish non-critical spectrum? And I think I 
will go to you first, Chairman Wheeler.
    Mr. Wheeler. I don't know the answer to that because I 
haven't market-tested it, and I think that ``is this enough 
incentive?'' is a market-test question. So I am going to, with 
all due respect, punt. What is important is the concept that 
has been developed, and it would seem to me that once that 
concept is codified, that making sure that incentives are 
adequate is frankly the easier lift on the whole exercise.
    Ms. Matsui. All right, thank you. Commissioner Rosenworcel?
    Ms. Rosenworcel. Thank you for the question. I think first 
of all that the legislation that you and Congressman Guthrie 
have introduced is terrific. The demand on our airwaves is 
going up and the supply of unencumbered spectrum is going down. 
It is time to be creative. This legislation is creative. As far 
as the incentives go, I think it is a good starting point for 
conversation because right now, federal agencies, by some 
measures, have veto control over about 60 percent of our 
airwaves. They use their spectrum, their mission focus, to 
protect our national defense, to keep our planes in the sky, to 
tell us what weather patterns are coming, but they don't have 
structural incentives to be efficient with it. Your bill is a 
start of a conversation about how we should apply those 
incentives, and once we get them right, we will have a catalyst 
for a lot more spectrum from new mobile broadband uses, which 
would be a terrific thing for the economy.
    Ms. Matsui. Great. Thank you very much.
    Chairman Wheeler, you have emphasized how important it is 
for you to lead the FCC in fact-based decision-making. In the 5 
gigahertz proceeding, for example, this committee is looking to 
the FCC's engineering expertise to determine the conditions 
under which Wi-Fi can use a band in a way that protects the 
missions of federal systems and commercial systems. How are you 
and your staff planning on responding to the challenge, and is 
this proceeding a priority for the Commission?
    Mr. Wheeler. So as Commissioner O'Rielly said, I would 
associate myself with his comment that he is a strong supporter 
of unlicensed. The key, of course, is to make sure that there 
is no harmful interference, as I have discussed with Mr. 
Dingell, but I believe that if you take a look at the 5 
gigahertz, and you look at block 1, NII-1, that we should be 
moving to a rulemaking on that, which is something that 
Commissioner Pai has often suggested. Also when you look at 
band 2 which is DOD, and band 4 which is ITS, that we have to 
address the questions that I was addressing with Mr. Dingell, 
and that is to make sure there is no harmful interference, and 
there is nothing in the record that really gets to that at this 
point in time, but we need to build that record.
    Ms. Matsui. OK, fine, thank you very much. And I have to 
ask a broadband-adoption question here. The FCC has, Chairman 
Wheeler, implemented broadband adoption as part of the Lifeline 
reform measures. Can you explain what the FCC plans to do 
here----
    Mr. Wheeler. Yes.
    Ms. Matsui [continuing]. And what is the goal of these 
pilot projects?
    Mr. Wheeler. So there are 14 projects that are taking place 
around the country that we are funding with some of the savings 
that we have had in other parts of the program, and we are 
going to be looking at, for instance, what is the impact of a 
Lifeline-like subsidy on broadband adoption, and we are going 
to be looking at what are the kinds of training issues to help 
people understand what broadband can do for them, and the kinds 
of things that they can do once they get on the Internet, 
because those seem to go part and parcel. It is not just that 
you can access it, but also that you can use it and you 
understand why you ought to be using it.
    Ms. Matsui. So are you going to use this information to 
develop a responsible permanent broadband adoption program?
    Mr. Wheeler. That is the goal. These are trials to inform 
our future actions, and wireless broadband and broadband 
adoption are kind of the sine qua non of what the Agency does.
    Ms. Matsui. OK. I want to thank you.
    I yield back my time.
    Mr. Walden. The gentlelady yields back her time.
    And the Chair recognizes the gentleman from Texas for 5 
minutes.
    Mr. Barton. Thank you, Mr. Chairman, and I want to make a 
comment on the audience. This one is a lot bigger than the one 
upstairs with the joint hearing, and they seem to be more 
interested too. So I guess that is a credit to the subcommittee 
and the FCC Commissioners. We have the NRCC--not NRC, NRC.
    Mr. Walden. I think you need to be clear on that one.
    Mr. Barton. That would be news, wouldn't it, if Greg Walden 
was testifying upstairs? Anyway, I just have one question.
    The Middle Class Tax Relief and Job Creation Act requires 
repackaging and auctioning of the 65 megahertz of spectrum, and 
the low-powered TV stations, of which there are hundreds if not 
thousands, are not guaranteed continued existence, but Chairman 
Walden, this subcommittee, myself, have a bill that we hope to 
introduce very soon. While it doesn't guarantee them any 
additional rights, it does create, I hope, a pathway so that 
they may continue to exist. As the new Chairman of the 
Commission, Mr. Wheeler, do you have any thoughts on what might 
be done to give our low-powered TV industry a chance to 
continue to exist?
    Mr. Wheeler. Thank you, Mr. Barton. Yes, and that would 
probably fall in three buckets. One, there has been a lot of 
talk following the statute, and as you point out, the statute 
says that LPTV translators are secondary surfaces and that is 
what the statute says. Second is we have actually opened a 
public notice on the delivery of the content of LPTV's. How do 
we make sure that the content, and this ends up being more of a 
digital technology question than anything else, and how do you 
use digital technology to get the content out, because that is 
the consumer protection issue here, to make sure the consumer 
gets the content. And then the third point here is that there 
may be a safeguard in the reality that rural areas don't have 
that great a demand for spectrum for wireless services to begin 
with, and so they may be operating in areas where there will be 
less pressure to get spectrum, but we will find out as we go 
through this process.
    Mr. Barton. OK. Commissioner O'Rielly, you are the new kid 
on the block, so to speak. You haven't had a chance publicly to 
comment on this issue. Do you have any thoughts about low-
powered TV and what might be done to help them continue to 
exist?
    Mr. O'Rielly. Well, the Chairman is right in the sense that 
you have the right to introduce legislation. Working for the 
members on the Spectrum Act, there was a decision made by those 
members to not protect low-power and translators, and you have 
legislation. I would defer to your legislation to whether that 
may resolve that. I know you and I had a chance to talk. I know 
some of the low-power representatives have argued it may be 
beneficial financially to the government for low-power 
television stations to participate. I am not sure, and I don't 
know if it is accurate, but we have heard that argument as 
well, and it is probably something we have to explore.
    Mr. Barton. OK.
    That is my only question, Mr. Chairman. With that, I yield 
back.
    Mr. Latta. The gentleman yields back the balance of his 
time.
    The Chair now recognizes the gentleman from Utah for 5 
minutes.
    Mr. Matheson. Thank you, Mr. Chairman. I appreciate all the 
Commissioners taking the time to be here today. I think this is 
a very informative hearing.
    First, Chairman Wheeler, in my city, Utah, we have over 750 
active translators that relay signals to many rural communities 
that rely on broadcast television to obtain their newscast, 
their public service announcements, their entertainment. Now, 
with the increased reliance on mobile data, there is no doubt 
that we need to take steps to move forward with making more 
spectrum available--I've heard concerns that the spectrum 
repackaging that could result from the Incentive Auctions could 
have a negative impact on those rural communities that tend to 
be more dependent on broadcast television.
    What steps is the FCC taking to protect these viewers from 
possible negative impacts?
    Mr. Wheeler. Well, Congressman, the first issue is how 
threatened should they feel, and the fact that they are living 
in rural areas where there is less of a demand for mobile 
spectrum may end up being a de facto shield for them.
    Mr. Matheson. All right.
    Mr. Wheeler. Secondly is, as the statute says, this is a 
secondary surface, it does not have protection. So the question 
is how do you protect consumers, as you are suggesting, who 
rely on it, and that is why we have had a public notice and are 
seeking comments on the question of how do you get what the 
translator or LPTV station does in terms of content out, and 
how does new technology fit into that, such as digital use of 
the airwaves or whatever the case may be. But this is clearly 
an issue where we need to be focusing on what is the effect on 
the consumer----
    Mr. Matheson. Right.
    Mr. Wheeler [continuing]. Rather than what is the effect on 
the transmission media, because you have told us how we should 
look at that transition media.
    Mr. Matheson. Right. I appreciate that response. There has 
been a lot of back-and-forth on how the Incentive Auction 
should be structured, and I think most would agree it is 
imperative we maximize participation, both in the Reverse 
Auctions and the Forward Auctions, but, Chairman Wheeler, I was 
wondering, what do you see is the best way for us to maximize 
participation and also revenue for the federal government in 
both of these auctions?
    Mr. Wheeler. Before I took this job, I was in the business 
of doing business deals----
    Mr. Matheson. Yes.
    Mr. Wheeler [continuing]. And I think that is what we are 
talking about here.
    Mr. Matheson. Right.
    Mr. Wheeler. This is a business transaction that someone 
who has a license needs to make a business decision about, and 
how do you do that. Well, I--and what is our role. First of 
all, we need to make sure that we are getting relevant 
information on a timely basis into the hands of those parties 
to make that decision, and that is why we have scheduled the 
auction plan. We are saying in January, we are going to begin 
laying out exactly what that kind of information needs to be. 
Secondly, I think it is incumbent on us to have an outreach 
program----
    Mr. Matheson. Yes.
    Mr. Wheeler [continuing]. In which we make sure that small 
and large broadcasters understand how the program is going to 
work, what the economics could be, and maybe even begin to 
think in terms of what economic models might look like, because 
at the end of the day, what we are really doing is we are 
saying we want the marketplace to make a decision as to what is 
the highest and best use of spectrum, and the marketplace can't 
make that kind of decision until it is informed. So it is 
incumbent upon us to make sure that that kind of information is 
in a timely manner available to those, and to help them with 
that process.
    Mr. Matheson. Commissioner Rosenworcel, I have a question 
for you about the ConnectED Program you mentioned briefly in 
your opening testimony. You also mentioned that the current E-
Rate program had some bureaucratic inefficiencies built into it 
right now. What can the Commission do to maximize efficiency to 
get more bang for the buck, what can you do with your existing 
authority, or what do you need for Congress to do to change it 
to also increase those efficiencies?
    Ms. Rosenworcel. Thank you very much for the question. I 
think this program is really important, and reinvigorating it 
is really important for education, infrastructure and the 
economy. I think we can do more with this program just as it 
is. As my colleague, Commissioner Pai, noted, we do subsidize a 
whole bunch of old-fashioned services right now. We should 
phase those out over time and focus instead on capacity and 
band width. And like you mentioned, we need to reduce 
bureaucracy. Bureaucracy gets in the way of small and often 
rural schools from participating in this program. I would like 
to see us encourage greater use of consortia to improve bulk 
buying power, and also have multiyear applications to reduce 
the administrative burden on schools that do participate.
    Mr. Matheson. I appreciate that.
    Mr. Chairman, I yield back.
    Mr. Latta. The gentleman yields back.
    And the Chair now recognizes for 5 minutes the gentleman 
from Nebraska.
    Mr. Terry. Thank you, Mr. Chairman. And let me begin with 
by thanking former Acting Chair Clyburn, and during your tenure 
as Acting Chair, you finished the low-power FM, and you guys 
did a wonderful job on it, you really did, and I want to thank 
all of you for that.
    But Acting Chair--former Acting Chair, just now Member 
Clyburn----
    Ms. Clyburn. The Commissioner----
    Mr. Terry. Commissioner, yes.
    Ms. Clyburn [continuing]. Formerly known as.
    Mr. Terry. Yes, that works, and you can have a sign for 
your name now, but you were extremely communicative. I love the 
way you reach out to us and, frankly, you are so extraordinary 
that I think every Chairman, including the new one, should 
model themselves after that. We don't--it is very rare that we 
see that level of communication, so I just want to thank all of 
you. This really is a great Board. You guys are really serious 
about the real issues, and I like how you filter out the 
politics that surrounds all of this. Keep it up.
    I know that the quantile regression analysis has already 
been discussed to some point, but I just want to let you know 
that has been a long-time concern for me. I think some of the 
concerns that we had that it could actually displace or retard 
capital investment in rural America, when this is all about 
getting cheap resources and capital into rural America because 
of its high cost. And so it really needs to be reviewed, and, 
Chairman Wheeler, I appreciate your comments on the record here 
today is that you understand this problem. I will invite you 
and all of the Commissioners out to rural Nebraska. You land in 
my district, then we go there. But it really is becoming a 
problem. There is one provider in Diller, Nebraska, that we 
have used as the model for responsible rural telecom, because 
there are businesses there that now have high speed, and they 
are using it to monetize their businesses there, where they 
truly are a worldwide business, not just the two blocks at 
Diller, Nebraska. But there is a wind farm that they are having 
trouble. The wind farm that wants to go there, that needs a 
broadband hookup, and they are saying, with our cap, we don't 
have the money. We aren't allowed to use that money in that 
way. So it is having serious effects. It is just not that one 
house that is 30 miles aback and, you know, line in and out, it 
is really hurting rural economic development.
    So I want to go ahead. And then in my 2 minutes left, I 
want to ask the real question and to Chairman Wheeler, and 
either of the Commissioners wish to step in, but I want to ask 
about a rule that concerns the video market. Many of us are 
concerned that the price of cable subscriptions, and I will 
tell you that is an often and frequent call to my congressional 
office. And the current market for video is seeing an expansion 
in the scope of current law wasn't necessarily intended to 
address. That is the FCC has defined buying group of MVPD's for 
the purpose of program access rules in a way that excludes the 
NCTC, essentially the only buying group out there. So are there 
plans by the Commission to look into this, to maybe change it, 
do you think that the NCTC should be excluded from this 
process, Chairman Wheeler?
    Mr. Wheeler. Thank you, Mr. Terry. I have just become aware 
of the issues that have been raised about this, and want to get 
all over it and would ask that we be able to get back to you, 
but the answer is we are now aware and will be dealing with it.
    Mr. Terry. Any of the Commissioners have concerns about the 
NCTC being excluded from this rule? Hearing none, Mr. Pai, you 
actually had an expression.
    Mr. Pai. No good expression goes unpunished.
    Mr. Terry. Yes.
    Mr. Pai. I supported the notice that teed-up a lot of the 
questions--and we teed-up a lot of different questions, as you 
know, paragraphs 84 to 100 of that Order listed all the issues 
under consideration--and I look forward to working with 
Chairman Wheeler and my colleagues to ensure that the FCC takes 
the appropriate action to ensure that buying groups or other--
--
    Mr. Terry. Great.
    Mr. Pai [continuing]. Entities are able to compete.
    Mr. Terry. And others nodded.
    Mr. O'Rielly. Right.
    Mr. Terry. Mr. O'Rielly?
    Mr. O'Rielly. I am sorry, I didn't express a facial----
    Mr. Terry. Also known as the new guy.
    Mr. O'Rielly. The new guy, yes. I would have to agree with 
Chairman Wheeler. I don't have as much information on this, and 
I look to get up-to-speed on it, so I apologize that I don't.
    Mr. Terry. Yield back.
    Mr. Latta. The gentleman yields back the balance of his 
time.
    And the Chair now recognizes the gentleman from New Mexico 
for 5 minutes.
    Mr. Lujan. Mr. Chairman, thank you very much. And, Chairman 
Wheeler, welcome today. To all the Commissioners, welcome. 
Again, as we are announcing former positions in post, 
Commissioner Clyburn, I know that you are very welcome here 
today. It is great to hear the recognition from my colleagues 
with your leadership and your work, and I don't want to speak 
for former Public Utility Commissioner Ray Baum either, but I 
am going to invoke his name a bit. It is good to have another 
fellow Utility Commissioner here and a leader. For those of you 
that aren't aware, myself and Ray served at the same time on 
Utility Commissions as Commissioner Clyburn. We had a chance to 
do some great things together, and it is great to have you 
again in that leadership capacity, Commissioner Clyburn.
    Chairman Wheeler, I appreciate very much the conversation 
about quantile regression analysis. I think you will see that 
there are many rural members of Congress, or members that 
represent rural parts of America, that are on this committee. 
As we look at this encouraging investment in rural America, I 
hope that, through all these deliberations and rulemaking, that 
we don't lose sight of the fact that if we can make a mobile 
call from an airline, that we should be able to make it 
anywhere in rural America. And if technology is allowing for 
that to occur, I don't want to hear that we are not able to 
anymore. So thank you again for looking at this and making sure 
that rural America will not be left out, Mr. Chairman.
    With that being said, I would also encourage and was 
encouraged by the fact that, in a recent report, there was some 
conversation about the Tribal--and would encourage that that is 
critically important as we roll out the re-evaluation of the 
QRA. And lastly, I want to let you know that I am planning on 
introducing a piece of legislation to include the elevation of 
the National Tribal Recognition of ONAP as a permanent office, 
and I would hope that we might be able to work with our 
colleagues to elevate that--reports directly to the Chairman, 
especially with the evolution of what we are seeing with the 
extension of utilities across rural America, including tribal 
lands.
    Mr. Chairman, I am intrigued very much by the conversation 
around the IP transition. I think Chairman Rogers, Chairman of 
the Intelligence Committee, was asking about the importance of 
security in networks, that we not lose sight of the fact of the 
importance of protection of consumers and network security. As 
we are looking forward into future technologies, sometimes 
things that we have read about in fiction or we have seen in 
television, there has been a lot of concern recently about 
security of networks, about the infringement on individuals, 
peering eyes, if you will, sometimes into consumer information, 
and I am intrigued by your direction to move onward with real-
world experiments that will be coming forward. I would like 
your thoughts on anything that you are aware of, or that the 
FCC may be looking at with laser-based quantum encryption, 
point-to-point work that is happening right now with our 
national labs, it has been written about, I know it makes some 
people nervous but it seems to me that as we are looking to 
protect consumer information and intellectual property, that 
the more advanced that we can make our networks with technology 
that is currently available that we may take to the commercial 
marketplaces, something that I would like to encourage and see 
and just like to get your thoughts on that.
    Mr. Wheeler. I just learned quantile regression analysis, 
and now you want me to know laser-based quantum encryption.
    Mr. Lujan. Yes, sir.
    Mr. Wheeler. I look forward to learning a lot about that. I 
don't mean to be light, but let me be specific on what I can 
comment on. Our networks need to be secure, period. What I was 
trying to say to Mr. Rogers is that the best way for attacking 
that is through the multi-stakeholder process and moving with 
dispatch, because the bad guys sure figure out a way to get 
around things so we need to make sure that our responses are 
flexible. We are working, obviously, with the President's 
Executive Order and the various steps that he is taking, or the 
Executive agencies are taking, in that regard. I happen to 
believe that 2 challenges of the IP transition is going to be 
the security of the networks and the privacy of the 
information. If you go back to the comment that I was making, I 
believe, to Mr. Waxman about the trials need to be about 
measuring values, then we need to be addressing both of those 
issues inside that trial, and I look forward to learning more 
about how laser quantum can help that.
    Mr. Lujan. I appreciate it, Chairman. And if I may, Mr. 
Chairman, you know, it wasn't too long ago that when the same 
idea was presented, that we may be able to move data over 
lights and lasers----
    Mr. Wheeler. Right, exactly.
    Mr. Lujan [continuing]. There were a lot of discouraging 
thoughts that were associated with that, but as we are moving 
now away from copper as a new medium where even the ability to 
move data on fiber can't keep up with our processing speeds. If 
laser-based quantum encryption is good enough to keep national 
security secrets preserved, I would certainly hope that we find 
a way to extend these protections to consumers as well. And 
again, with the real threats that are taking place with theft, 
with intellectual property, right now we know that it works 
point-to-point, but there are ways to make this work with--what 
we have available. This is a serious area that I have tried to 
take up with the Intelligence Committee. They were very 
cautious with their conversations with me until I presented 
with them with publications that have talked about this in open 
source and an unclassified way. So I am hoping that we might be 
able to look into this more, and have a serious attempt to 
incorporate this into our day-to-day lives.
    Thanks again, Mr. Chairman, for that latitude.
    Mr. Latta. The gentleman yields back.
    And the Chair now recognizes the gentleman from Colorado 
for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman. And I want to commend 
all the Commissioners for being here today, and congratulations 
on your new role and your newly-retired-from role. Thank you 
for your service. And, Commissioner Pai, I want to thank you 
for your work on the quantile regression analysis, and the 
comments that you made at the beginning of your testimony was--
the question of Chairman Walden, I guess, was something that I 
have dealt with each and every day in a district bigger than 
the State of South Carolina. I have a number of rural telecom, 
rural utilities that continue to face the uncertainty as you 
have mentioned about the QRA, and I appreciate it. And so, 
Chairman Wheeler, thank you very much for your comments on that 
as well, and I look forward to following up with you as those 
conversations and decisions move forward.
    I wanted to ask a quick question to Commissioner Pai about 
the issue of ConnectED and the E-Rate Program. Who is 
responsible for policing to make sure the E-Rate Program is 
being used as it--as appropriately, making sure there is no 
abuse of the program?
    Mr. Pai. Congressman, thanks for the question. In theory, 
the Universal Service Administrative Company, overseen by us, 
monitors it, but in practice, given the limited resources that 
USAC has and given the limited resources the FCC has to oversee 
USAC, there is not a great deal of transparency and 
accountability in the system.
    Mr. Gardner. A question I had with that is twofold. Number 
1, how do we ensure that there is no overlap of private sector 
service with E-Rate funding and programs to make sure that we 
are not adding to government competition of the private sector, 
but number two, if USAC has identified a problem with an E-Rate 
contract or recipient, is there a way to police or perhaps are 
there bar--you know, disbarment issues that you can talk about, 
because I know one of the issues in Colorado is that there has 
been a company that is involved, and has been morphed into a 
new company, that has had significant issues with E-Rate 
violations and is now involved in another company in Colorado 
that is providing services to schools.
    Mr. Pai. Yes. USAC has taken actions such as the type you 
have indicated, and as well the Department of Justice in 
appropriate cases can take action where it suspects that 
something fraudulent has occurred. And I am quite sure I speak 
for my colleagues when I say that the FCC has no interest in 
doing anything but enforcing the rules against people who abuse 
the E-Rate system. With respect to the first part of your 
question, I think it is critical as we think about reforming 
the E-Rate Program, in addition to restructuring the basic 
planks of it, that we ensure that at the end of day we don't 
supply E-Rate funds to supplant or add to the problems of 
competitors who have taken the risk and invested private 
capital in deploying networks.
    Mr. Gardner. And, Commissioner Rosenworcel, I know you 
talked about this as well. I don't know if you have anything to 
add.
    Ms. Rosenworcel. You know, I would echo largely the 
sentiment of my colleague. I--we wouldn't want government funds 
to displace private sector funds. We want to be efficient with 
the limited dollars we have, and make sure we reach as many 
schools, at as high speed as possible, including in rural 
Colorado. And with respect to oversight, we could always 
benefit from more oversight. When we find bad actors in a 
program, we have to take efforts to get them out.
    Mr. Gardner. Great. Thank you. And Commissioner--or, 
Chairman Wheeler, a question I have, and this may be something 
that you need to get back to me on, are you familiar with a 
report on next-generation 911 that is being put together by the 
National Highway Traffic Safety Administration in connection 
with a Blue Ribbon Panel that was convened by, let me get the 
name here, the FCC's Communications Security Reliability and 
Interoperability Council?
    Mr. Wheeler. Right. That is CSRIC, yes.
    Mr. Gardner. Yes, CSRIC. Are you familiar with a report 
that is about to come out in January?
    Mr. Wheeler. I am not familiar with a report that is about 
to come out.
    Mr. Gardner. There was the Blue Ribbon Panel that was put 
together at----
    Mr. Wheeler. Right, I know that, right. Yes.
    Mr. Gardner. Right, CSRIC. Apparently, there is a Blue 
Ribbon Panel--the report is coming out in January, and there 
are some questionable findings in this report, and I would hope 
that perhaps the FCC, because I believe some of the findings 
are not in-line with FCC ideas at all. If you could take a look 
at that report before it is issued and public to make sure that 
when we issue a report that has the stamped seal of approval of 
the federal government, that it is in-line with the FCC 
directives, and believes that----
    Mr. Wheeler. You can consider that done.
    Mr. Gardner. Thank you very much. And a final question in 
my time, regarding the IP transition issues, heading in a good 
direction but--and there are significant strides being made to 
transition to IP but, talking about rural America again, how do 
we further encourage this transition in a way that ensures 
consumers remain served in the long-run and particularly in 
rural America?
    Mr. Wheeler. I am sorry, that consumers would be served in 
the long-run?
    Mr. Gardner. In the long-run, particularly in rural 
America.
    Mr. Wheeler. Yes, it is going to be very important that we 
have trials in rural areas to begin to answer those kind of 
questions. I mean you can't go to New York City or some place 
like this and run a trial and say that it applies in cities in 
your district. That is going to be one of the criteria that we 
are looking at.
    Mr. Gardner. Thank you.
    Yield back my time.
    Mr. Walden. Thank you. The gentleman yields back.
    And the Chair recognizes the gentleman from Missouri for 5 
minutes.
    Mr. Long. Thank you, Mr. Chairman. And, Chairman Wheeler, I 
came to Congress with a 30-year background in the auction 
business, so that was my profession for 30 years before I got 
here, so I have a great interest, and any time that we try to 
conduct an auction for anything, and it is certain to me about 
this Reverse Auction thing, because I am not sure exactly how 
that is supposed to work, but can you provide us with a 
timeline of actions that need to occur before the Incentive 
Auctions would begin?
    Mr. Wheeler. Yes, sir. In next month's open meeting, we are 
going to have a presentation that is going to lay out both the 
timeline and the policy issues that need to be decided, and 
some recommendations on those. Then in the spring, we are going 
to be voting on a Report and Order that solicits offers to do 
trials, sets up a measurement scheme for them, and begins to 
address the kinds of policy issues that will be tangential to 
all of that, and then we will go forth with trials.
    Mr. Long. Can you also tell me what the FCC is doing to 
ensure that the maximum amount of revenue will be generated 
through these auctions, which was always a concern of mine as 
an auctioneer?
    Mr. Wheeler. Believe me, one of ours as well because we 
have the responsibility not only to fund FirstNet and the 
auction activities themselves, but also to contribute to pay 
down the federal deficit. And I think the key to how you can 
maximize revenue comes down to multiple things. One is, we have 
got to be able to attract broadcasters. We have got to have 
something, as I was saying previously, that are rules that are 
understandable, are rules that we are actually being aggressive 
and helping people understand the economic impact of them, 
because there is, as you know, you are only going to bid to the 
point that your spreadsheets say it is going to be making 
sense. So that is the first thing, that we have to attract 
broadcasters. We also have a challenge here in that we have to 
be freeing up spectrum.
    Mr. Long. Have to be what?
    Mr. Wheeler. Freeing up spectrum.
    Mr. Long. Which requires people to put spectrum----
    Mr. Wheeler. Which--there is the----
    Mr. Long [continuing]. End of the auction.
    Mr. Wheeler. There is the key. So you have to provide the 
appropriate incentive to get them to free up----
    Mr. Long. And do you foresee that happening? From what I 
have talked to, and people I have talked to, I don't know if 
that is going to happen in as large a way as what we----
    Mr. Wheeler. So the Congress told us to make it happen, and 
we are going to do our damndest to deliver on those 
instructions, and I believe that we will be able to fulfill the 
challenge that we have been given. And in no way, shape or form 
do I underestimate the magnitude of it. I have spent more time 
on this issue in the last 39 days than any other issue. And I 
know my colleagues all feel the same way on this. We understand 
that we are biting off a huge chunk here.
    Mr. Long. And there is an article where you were speaking 
in Ohio, and to quote out of the article, ``the protection of 
competition Mr. Wheeler said would apply to the coming auctions 
of additional airwaves or spectrum for mobile broadband. In 
April, the Justice Department told the FCC that it could help 
to protect competition by ensuring that the two largest 
companies, AT&T and Verizon, were not allowed to use their 
financial might to buy up all the available spectrum being 
auctioned, shutting out smaller carriers.'' So how do you 
balance that? How do you decide I want to get the most money 
for my product over here, but I want to limit my bidders over 
here, how does that----
    Mr. Wheeler. I also think that the more people that get to 
the auction, presumably, the better result. And so we want to 
make sure that we are creating an auction marketplace that will 
attract as many people as possible, not just the giants. As a 
former entrepreneur, we want to make sure that we have smaller 
wireless companies, and that there are entrepreneurial 
opportunities in here. That is one of the things that is most 
interesting about what we recently put out for public notice, 
the proposal from the Competitive Carriers Association, the 
Rural Carriers Association and the NTCA, the Rural Wireline 
Association, on talking about smaller economic areas so that 
they could bid for a smaller piece of geography, rather than a 
humungous piece, because four entrepreneurs, four smaller 
carriers, they can target their activities, they can take 
something that is a consumable bite, rather than be forced to 
go out and not compete.
    Mr. Long. But they also have to put together a patchwork 
quilt of--to make their system work, correct, but they can buy 
through the auction, they have to be able to----
    Mr. Wheeler. So they can buy their areas, they can buy 
other smaller areas, rather than having to buy and this is not 
a decision, I just want to be clear, this is what we have put 
out for comment, but it is certainly a very interesting idea--
--
    Mr. Long. But if they made A, B and C, and they get A and B 
but then they can't get C, then A and B weren't worth anything.
    Mr. Wheeler. But that is kind of the history of the 
wireless industry. We are about to conduct our 96th auction, 
and I have been in them from the outset, and traditionally, 
that kind of situation has occurred, and then an aftermarket 
develops in which various players say, ``OK, how can I 
reorganize for the most efficiency?''
    Mr. Long. OK. I am beyond my time by quite a little bit, so 
if I had any time, I would yield it back.
    Mr. Walden. The gentleman's time has expired.
    And the Chair now recognizes the gentlelady from North 
Carolina for 5 minutes.
    Mrs. Ellmers. Thank you, Mr. Chairman. And thank you to the 
Commissioners for being here today.
    Commissioner Clyburn, I am going to direct my questions to 
you. I have an issue that has been raised from my sheriffs back 
home in North Carolina. It has to do with one of the points 
that you made in your opening testimony, and I will just read 
from your opening statement. ``We adopted an Order to reform 
inmate calling services to finally provide relief to millions 
of families and 2.7 million children who have been paying 
unreasonably-high rates to stay connected with incarcerated 
loved ones.'' My sheriffs back home do have some concerns on 
this issue, and they would like me to pose some questions to 
you in regard to security measures that they will now be 
putting in place. Certainly, they want to be able to provide 
access and information and the ability to communicate with 
family members, but they are concerned that this regulation is 
saying that their ability to put forward call blocking through 
the prison, is that an issue. Is that looked upon as something 
that we want to veer away from?
    Ms. Clyburn. So let me start again. Thank you, and it is a 
pleasure meeting a Carolinian.
    Mrs. Ellmers. Absolutely, yes.
    Ms. Clyburn. Right. We might argue a bit about which----
    Mrs. Ellmers. Yes.
    Ms. Clyburn. Right.
    Mrs. Ellmers. That is OK though. We are brothers, cousins, 
sisters.
    Ms. Clyburn. Absolutely.
    Mrs. Ellmers. That is right.
    Ms. Clyburn. So let me start with the latter in terms of 
the call blocking concerns that some of the sheriffs and 
persons who run jail facilities have mentioned. So as it 
relates to that particular item, I want to assure you that 
nothing within anything that we have delivered in this Order 
prevents any type of security in--security needed type of a 
blocking. So if it is a judge or a witness or something----
    Mrs. Ellmers. Yes.
    Ms. Clyburn [continuing]. You know, is potentially at 
risk----
    Mrs. Ellmers. Yes.
    Ms. Clyburn [continuing]. Then yes, these providers can 
block calls. The call blocking comes into play when there is 
not a business relationship with--if someone is doing business 
with somebody else, and then the supplier----
    Mrs. Ellmers. Yes.
    Ms. Clyburn [continuing]. Is blocking them, that is when we 
have some disconnects with our rules, but when it comes to 
security protocols, that is in place. So you mentioned what is 
at the epicenter of our reasoning for reform----
    Mrs. Ellmers. Yes.
    Ms. Clyburn [continuing]. That family members, those who 
represent those who are incarcerated, not everybody 
incarcerated is guilty----
    Mrs. Ellmers. Yes.
    Ms. Clyburn [continuing]. And those who are trying to help 
rehabilitate those inmates have complained to us for a number 
of years, for well over 10 years, that the ability to 
communicate was just financially outrageous, that it was an 
unaffordable regime. So what we did, after 10 long years, was 
act.
    Mrs. Ellmers. Yes.
    Ms. Clyburn. And we looked at, and reminded ourselves with 
the Communications Act in terms of universal service principles 
put forward----
    Mrs. Ellmers. Yes.
    Ms. Clyburn [continuing]. That is the providing of just and 
reasonable rates for all. And so we put in a mechanism that 
will provide that, and what we also did, not only providing a 
means for just and reasonable rates for those families and 
others who use the phone service, but providing the means for a 
just and reasonable rate of return----
    Mrs. Ellmers. Yes.
    Ms. Clyburn [continuing]. For those carriers. At the same 
time, built in those--that just and reasonable rate of return 
for carriers----
    Mrs. Ellmers. Yes.
    Ms. Clyburn [continuing]. Is the amount of money needed to 
provide state-of-the-art security protocols.
    Mrs. Ellmers. Yes.
    Ms. Clyburn. So nothing within the framework in terms of 
what we put forth in terms of the Order and the further Order 
that will deal with intrastate rates, will compromise security 
protocols, but it will bring more certainty and more, I guess, 
I would--again, just affordability for those----
    Mrs. Ellmers. Yes.
    Ms. Clyburn [continuing]. Who are making calls to the 
incarcerated.
    Mrs. Ellmers. There are also concerns about the cost 
involved. Can you give some guidance in anticipation of the 
costs that they will have to incur as a result of wanting to 
make sure that everyone is protected?
    Ms. Clyburn. Right.
    Mrs. Ellmers [continuing]. And the security is there. Also 
would you consider exempting local jails until they can come up 
with a plan of action?
    Ms. Clyburn. So one of the things that we have put forth in 
this engagement is the capacity for any provider that is under 
distress----
    Mrs. Ellmers. Yes.
    Ms. Clyburn [continuing]. They can apply for a waiver 
process for a full waiver. And so that capacity is within 
means, and so they do have the ability to do so, but one of the 
things that I wanted to emphasize is when we came up with this 
particular rate structure, we looked at a number of cost 
studies----
    Mrs. Ellmers. Yes.
    Ms. Clyburn [continuing]. And cost models that included a 
wide array of facilities, and came up actually with a cost 
structure that was much higher than some of the petitioners 
wanted us to----
    Mrs. Ellmers. Yes. Yes.
    Ms. Clyburn [continuing]. But we thought that we needed to 
take into account facilities, large and small, in order to come 
up with a rate structure that we think it strikes the right 
balance.
    Mrs. Ellmers. Well, thank you very much. And I look forward 
to working with the Commission on this issue and the 
subcommittee and my law enforcement back home, so thank you so 
much. I look forward to that.
    Ms. Clyburn. Thank you, ma'am.
    Mrs. Ellmers. And I yield back the remainder of my time.
    Mr. Latta [presiding]. The gentlelady yields back. And 
seeing no other members to ask questions, I want to thank the 
Commission for being with us today, and I know that Chairman 
Walden does the same, and I also want to thank the Commission 
for changing your time today for your meeting to be able to be 
here, and I understand your meeting is at 2 o'clock, so we 
appreciate you accommodating the committee to appear before us 
today.
    And seeing no further business to come before the 
committee, the committee stands adjourned.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
